From:
To:
Subject:
Date:

ecfnoticing@cadc.uscourls.gov,
attomeyshao@aol.com,
19-5014 YiTai Shao v. John Roberts, etarPer Curiam Order Filed (EnBanc Panel)” (1:18-cv-01233-RC)
Sat, May 2,2020 1:43 am

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and parties in a case (including
pro se litigants) to receive one free electronic copy of all documents filed electronically, if receipt is required by law or directed by the filer. PACER access
fees apply to all other users. To avoid later charges, download a copy of each document during this first viewing.
United States Court of Appeals for District of Columbia Circuit
Notice of Docket Activity
The following transaction was entered on 05/01/2020 at 1:41:59 PM EDT and filed on 05/01/2020
Case Name: Yi Tai Shao v. John Roberts, et al
Case Number: 19-5014
Document(s): https://ecf.cadc.uscourts.gov/docsl/01208224160?uid=aa2569d2a871d00e
Docket Text:
PER CURIAM ORDER, En Banc, [1840903] filed denying appellant's motion for en banc reconsideration [1834621-3]. Before Judges: Srinivasan,
Henderson, Rogers, Tatel, Garland, Griffith, Millett, Pillard, Wilkins, Katsas and Rao. [19-5014]
Notice will be electronically mailed to:
James S. Aist: aist@acklaw.com. maier@acklaw.com
Michael E. Bamsback: mbamsback@ohaganmever.com. cgentrv@ohaganmever.com
Mr. George A. Brandt: allen.brandt@cco.sccgov.org. kimberlv.ide@cco.sccgov.org
Drew T. Dorner: dtdorner@duanemorris.com. mlnottingham@duanemorris.com
James A. Lassart, Litigation Counsel: JLassart@MPBF.com. amontastier@mpbf.com
Max Francis Maccoby, Attorney: maccobv@washglobal-law.com
Yi Tai Shao: attornevshao@aol.com
Lauren Gallo White, Attorney: lwhite@wsgr.com. dgrubbs@wsgr.com

Document to be served by alternative means on:

BJ Fadem
111 West Saint John Street
Suite 700
San Jose, CA 95113
John Orlando
1100 Lincoln Avenue
Suite 365
San Jose, CA 95125

/

f

The following document(s) are associated with this transaction:
Document Description: Order Sent
Original Filename: /opt/ACECF/live/forms/19-5014LDED.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=l 109186823 Pate=05/0l/2020] [FiIeNumbei=1840903-0]
[5a77f5ea75815707d6f7c6c2b77ec74be6e55bb02ce06efb3e868dd09335e8192bc6c0582098fe38fbd8ca39ef70dbc8c7d6c936101e970b01dd45a7e0a8ac6b]]
Recipients:
James S. Aist
Michael E. Bamsback
Mr. George A. Brandt
Drew T. Dorner
BJ Fadem
James A. Lassart, Litigation Counsel
Max Francis Maccoby, Attorney
John Orlando
Yi Tai Shao
Lauren Gallo White, Attorney

/)ppO0*_
;a,

-pr;A;

a:

ffinittb JStates (ttourt of ^Appeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

1:18-CV-01233-RC
Filed On: May 1, 2020
Yi Tai Shao,
Appellant
v.
John G. Roberts, Chief Justice, et al.
Appellees

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of the motion for en banc reconsideration of the February 5
2020 order denying appellant’s petition for rehearing, which the court construes as
containing a request to recall the mandate, it is
ORDERED that the motion be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Daniel J. Reidy
Deputy Clerk

Appoo}
From:
To:
Subject:
Date:

ecfnoticing@cadc.uscourts.gov,
attomeyshao@aol.com,
19-5014 Yi Tai Shao v. John Roberts, et al "Per Curiam Order Filed (Special Panel)" (1:18-cv-01233-RC)
Sat, May 2, 2020 1:38 am

♦♦♦NOTE TO PUBLIC ACCESS USERS’"** Judicial Conference of the United States policy permits attorneys of record and parties in a case (including
pro se litigants) to receive one free electronic copy of all documents filed electronically, if receipt is required by law or directed by the filer. PACER
access fees apply to all other users. To avoid later charges, download a copy of each document during this first viewing.
United States Court ofAppeals for District of Columbia Circuit
Notice of Docket Activity
The following transaction was entered on 05/01/2020 at 1:36:52 PM EDT and filed on 05/01/2020
Case Name: Yi Tai Shao v. John Roberts, et al
Case Number: 19-5014
Document(s): https://ecf.cadc.uscourts.gov/docs 1 /01208224155?uid=7864f243532265d9
Docket Text:
PER CURIAM ORDER [1840899] filed dismissing as moot appellant's motion to exceed word limits [1834710-2]. It is
FURTHER ORDERED that the motion for judicial notice be granted [1834622-2], It is FURTHER ORDERED that the motion for reconsideration be
denied [1834621-2], The Clerk is directed to accept no further submissions from *** YiTai Shao *** in this closed case. Before Judges: Millett, Pillard
and Wilkins. [19-5014]
Notice will be electronically mailed to:
James S. Aist: aist@acklaw.com. maier@acklaw.com
Michael E. Bamsback: mbamsback@ohaganmever.com. cgentrv@ohaganmever.com
Mr. George A. Brandt: allen.brandt@cco.sccgov.org. kimberlv.ide@cco.sccgov.org
Drew T. Domer: dtdomer@duanemorris.com. mlnottingham@duanemorris.com
James A. Lassart, Litigation Counsel: JLassart@MPBF.com. amontastier@mpbf.com
Max Francis Maccoby, Attorney: maccobv@washglobal-law.com
Yi Tai Shao: attornevshao@aol.com
Lauren Gallo White, Attorney: lwhite@wsgr.com. dgrubbs@wsgr.com
Document to be served by alternative means on:
BJ Fadem
111 West Saint John Street
Suite 700
San Jose, CA95113
John Orlando
1100 Lincoln Avenue
Suite 365
San Jose, CA 95125
The following document(s) are associated with this transaction:
Document Description: Order Sent
Original Filename: /opt/ACECF/live/forms/19-5014LDSD2.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=l 109186823 [Date=05/01/2020] [FileNumber-1840899-0]
[89097f84a99562ebf0b57fe69a2fc2c88c4ec6e20c4cl217b7c48fc7c5060f650f69043c98dfd87cecl93512d2347a8ac75bcec3bl2f8bec2a4585fdfd987030]]
Recipients:
James S. Aist
Michael E. Barnsback
Mr. George A. Brandt
Drew T. Domer
BJ Fadem
James A. Lassart, Litigation Counsel
Max Francis Maccoby, Attorney
John Orlando
Yi Tai Shao
Lauren Gallo White, Attorney

AppO‘0^
USCA Case #19-501-

Document #1340899

Filed:

J1/2020

Page 1 of 2

pintitb Jitates (ttourt nf Appeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

1:18-CV-01233-RC
Filed On: May 1, 2020
Yi Tai Shao,
Appellant
v.
John G. Roberts, Chief Justice, et al.
Appellees

BEFORE:

Millett, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the motion for reconsideration of the February 5, 2020
order denying appellant’s petition for rehearing, the motion to exceed the word limit for
the motion for reconsideration, and the motion for judicial notice, it is
ORDERED that the motion to exceed the word limit be dismissed as moot.
Because the court construes appellant’s filing as a motion for reconsideration rather
than a petition for rehearing, the applicable limit is 5,200 words. See Fed. R. App. P.
27(d)(2). Appellant’s motion for reconsideration does not exceed that limit. It is
FURTHER ORDERED that the motion for judicial notice be granted. Insofar as
appellant seeks judicial notice of materials from the records of other courts, this court
takes notice only of the existence of those records, and not the accuracy of any legal or
factual assertions made therein. See Crumpacker v. Ciraolo-Klepper, 715 Fed. Appx.
18, 19 (D.C. Cir. 2018). It is
FURTHER ORDERED that the motion for reconsideration be denied. Appellant
has not demonstrated that reconsideration is warranted.

f\pp ooS
USCA Case #19-501

Filed

Document #1840899

01/2020

Page 2 of 2

ffinxtzb Jiiates (Hanrt of appeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

The Clerk is directed to accept no further filings from appellant in this closed
case.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Daniel J. Reidy
Deputy Clerk

z^pp
' ' /•

Pnttzb Jiiates Court of JVppeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

1:18-cv-OI 233-RC
Filed On: February 18, 2020 [1828916]
Yi Tai Shao,
Appellant

v.
John G. Roberts, Chief Justice, et al.
Appellees
MANDATE
In accordance with the order of November 13, 2019, and pursuant to Federal
Rule of Appellate Procedure 41, this constitutes the formal mandate of this court.
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Link to the order filed November 13, 2019

/si
Daniel J. Reidy
Deputy Clerk

fippOOj
USCA Case #19-501-.

Document #1827069

Filed.

.05/2020

Page 1 of 1

^Axtlitb Jitates (SLonxt of appeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

1:18-cv-OI 233-RC
Filed On: February 5, 2020
Yi Tai Shao,
Appellant
v.
John G. Roberts, Chief Justice, et al.
Appellees
BEFORE:

Millett, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the petition for rehearing, the alternative motion to recuse
this court and transfer the appeal, and the motion to extend time, it is
ORDERED that the motion to extend time be dismissed as moot. No motion is
required because the petition for rehearing was filed within 45 days after the entry of
judgment. See Fed. R. App. P. 40(a)(1). It is
FURTHER ORDERED that the petition for rehearing be denied. It is
FURTHER ORDERED that the alternative motion to recuse and transfer be
denied. As the court held in its July 31,2019 order, appellant has not demonstrated
that the impartiality of any member of the court or the court staff might reasonably be
questioned. See 28 U.S.C. § 455(a).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

App°°8
ffinitzb Jitate (ttourt of ^Appeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

1:18-cv-01233-RC
Filed On: November 13, 2019
Yi Tai Shao
Appellant
v.
John G. Roberts, Chief Justice, et al.
Appellees

BEFORE:

Millett, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the court’s July 31,2019 order to show cause, and the
response and supplement thereto; the petition for rehearing; the motions for leave to
late file; the motion for judicial notice; and the motions to exceed the briefing word limits
and to dispense with a portion of the appendix, it is
ORDERED that the motion for leave to late file the response to the order to show
cause be granted. It is
FURTHER ORDERED that the motion for leave to late file the petition for
rehearing be dismissed as moot. No motion is required because the petition for
rehearing is not untimely. See Fed. R. App. P. 40(a)(1). It is
FURTHER ORDERED that the petition for rehearing be denied. Insofar as the
petition seeks to disqualify Judge Millett on the basis of an alleged personal relationship
with Chief Justice Roberts, appellant has provided nothing that would plausibly support
such an allegation, and appellant has not otherwise demonstrated that Judge Millett’s
impartiality can reasonably be questioned. It is
FURTHER ORDERED that the motion for judicial notice be granted in part, and
dismissed in part as moot. Insofar as appellant seeks judicial notice of materials that
were filed in the district court in this case and are therefore part of the record on appeal,

fi-ppooj
USCA Case #19-5014

Document #1815653

Filed: ^

.3/2019

Page 2 of 3

ffinxttb States (Eanvt nf JVpjxeaIs
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

the motion for judicial notice is unnecessary. See, e.g., Crumpacker v. Ciraolo-Klepper,
715 Fed. Appx. 18, 19 (D.C. Cir. 2018) (dismissing as moot motion for judicial notice of
materials from the record). With respect to materials from the records of other courts,
and materials from publicly available websites, the motion for judicial notice is granted
to the extent that the court takes notice only of the existence of the records, and not the
accuracy of any legal or factual assertions made therein. See jcL It is
FURTHER ORDERED that the order to show cause be discharged. It is
FURTHER ORDERED, on the court’s own motion, that the district court’s
January 17, 2019 order dismissing appellant’s complaint be summarily affirmed with
respect to all remaining appellees. The merits of the parties' positions are so clear as
to warrant summary action. See Taxpayers Watchdog, Inc, v. Stanley, 819 F.2d 294,
297 (D.C. Cir. 1987) (per curiam).
The district court correctly concluded that it lacked personal jurisdiction over 36
of the appellees. The court correctly rejected appellant’s conclusory and unsupported
assertion that those parties engaged in conspiratorial actions with parties in the District
of Columbia, such that personal jurisdiction could be exercised over those parties. See
Junqquist v. Sheikh Sultan Bin Khalifa Al Nahvan, 115 F.3d 1020, 1031 (D.C. Cir. 1997)
(“Bald speculation or a conclusory statement that individuals are co-conspirators is
insufficient to establish jurisdiction under a conspiracy theory.”).
Next, the district court correctly concluded that appellant’s claims for monetary
relief against Justice Conrad Rushing and Jackie Francis were barred by judicial
immunity. See Sindram v. Suda, 986 F.2d 1459, 1460-61 (D.C. Cir. 1993) (per curiam).
The district court also correctly concluded that, because it lacked authority to
grant the relief sought by appellant in several of her claims, appellant lacked standing
for those claims. See Swan v. Clinton, 100 F.3d 973, 976 (D.C. Cir. 1996).
In addition, appellant’s claims that Google and Youtube engaged in hacking and
surveillance activities against her at the behest of Chief Justice Roberts were properly
dismissed as patently insubstantial. Hagans v. Lavine, 415 U.S. 528, 536-37 (1974).
Likewise, appellant’s allegations that appellees Orlando, Fadem, Mitchell, Sussman,
and Wang aided and abetted a conspiracy against her are patently insubstantial; she
has not plausibly alleged any facts to support such a claim. See Bell Atlantic Corp. v.
Page 2

/Vpporo
JSCA Case £ 19-50

JDCL'riem r+13-i.

P-'ct

3 '7319

Pno;j 3 cf 3

ffinxtzb £%>tzdz& (Hnurt of ^Appeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5014

Twombly, 550 U.S. 544, 570 (2007) (complaint must “state a claim to relief that is
plausible on its face.”).
Insofar as appellant argues in her response to the order to show cause that
procedural errors or irregularities in the district court make summary affirmance
inappropriate, those arguments lack merit. The district court did not err in sua sponte
dismissing appellant’s claims as to those parties that did not move to dismiss. See,
e.g., Gonzalez v. Thaler, 565 U.S. 134, 141 (2012) (“[C]ourts are obligated to consider
sua sponte issues” related to subject matter jurisdiction); Lee’s Summit, MO v. Surface
Transp. Board, 231 F.3d 39, 41 (D.C. Cir. 2000) (“When there is a doubt about a party’s
constitutional standing, the court must resolve the doubt, sua sponte if need be.”);
Bakery. Director. U.S. Parole Com’n, 916 F.2d 725, 726-27 (D.C. Cir. 1990) (district
court was permitted to sua sponte dismiss for failure to state a claim where it was
“patently obvious that [plaintiff] could not have prevailed on the facts alleged in his
”). Insofar as appellant asserts that she was entitled to jurisdictional
complaint
discovery prior to dismissal, she has not shown that discovery of any particular facts
would have altered the district court’s jurisdictional analysis, which rested on legal
principles rather than factual findings. Nor has appellant shown that the district court
failed to consider her arguments in favor of recusal or to fully explain its denial of her
recusal motions. It is
FURTHER ORDERED that the motions to exceed the briefing word limits and to
dispense with a portion of the appendix be dismissed as moot.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 3

Isl
Lynda M. Flippin
Deputy Clerk

ftpptoll
USCA Case #19-5014

Document #1803537

Filed:

24/2019

Page 21 of 23

Pimitb States (Eouvt of Appeals
For The District of Columbia Circuit

No. 19-5014

September Term, 2018
1:18-cv-01233-RC
Filed On: July 31,2019

YiTai Shao,
Appellant
v.
John G. Roberts, Chief Justice, eta!.
Appellees

BEFORE:

Millett, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the amended motion to recuse and transfer, and the
supplement thereto; the motion for summary affirmance, the opposition thereto and the
reply; the court’s April 9, 2019 order to show cause, and the response thereto; the
amended motion to strike the reply; the motion for summary reversal, the supplement
thereto, the response thereto, and the reply; the motion for judicial notice; the motion to
exceed word limits; and the motion to dispense with the filing of an appendix, it is
ORDERED that the order to show cause be discharged. It is
FURTHER ORDERED that the amended motion to recuse and transfer be
denied. Appellant has not demonstrated that the impartiality of any member of the
court or the court staff might reasonably be questioned. See 28 U.S.C. § 455(a). It is
FURTHER ORDERED that the motion to strike the reply in support of the motion
for summary affirmance be denied. It is
FURTHER ORDERED that the motion for summary affirmance be granted and
the motion for summary reversal be denied. With respect to the moving appellees, the
merits of the parties’ positions are so clear as to warrant summary action See
Taxpayers Watchdog, Inc, v. Stanley. 819 F.2d 294, 297 (D.C. Cir. 1987) (per curiam).
The district court correctly concluded that appellant’s claims against the moving
appellees — that is, that the Inns of Court appellees are engaged in judicial corruption
and have participated in a conspiracy to deprive appellant of custody of her child - are

Appw 2
USCA Case #19*5014

Filed:

Document #1803537

24/2019

Page 22 of 23

ffinxteb JSiaias (frtmrt af Appeals
For The District of Columbia Circuit

No. 19-5014

September Term, 2018

K

4,5 UA 528,536'37 <1974): ~

... .
ORDERED, on the court's own motion, that appellant show cause
witmn 30 days of the date of this order why the district court's January 17 2019 order
should not be summarily affirmed with respect to all remaining appellees ’ The
response to the order to show cause may not exceed the length limitations established
by Federal Rule of Appellate Procedure 27(d)(2) (5,200 words if produced using a
computer, 20 pages if handwritten or typewritten). Failure by appellant to comply with
this order will result in dismissal of the appeal for lack of prosecution. It is
.. . f^THER ORDERED that the motion for judicial notice be granted in part and
dismissed in part as moot. Insofar as appellant seeks judicial notice of materials that
were filed in the district court in this case and are therefore part of the record on appeal
or of the motion for summary affirmance filed in this court, judicial notice is
gg-e: e-fl- Crumpacker v. Ciraolo-Klepper. 715 Fed. Appx. 18, 19 (D.C.
iaL2018) (dlsmiss'n9 as moot motion for judicial notice of materials from the record).
With respect to materials from the records of other federal courts, and materials from
appellees website, the motion for judicial notice is granted to the extent that the court
takes notice only of the existence of the records, and not the accuracy of any leqal or
factual assertions made therein. See Crumpacker. 715 Fed. Appx. at 19 (citing Liberty
—' lns- Co-v- Rotches Pork Packers. Inc.. 969 F.2d 1384, 1388-89 (2d Cir 1992)V
Goplin v. WeConnect, Inc.. 893 F.3d 488, 491 (7th Cir. 2018). It is
FURTHER ORDERED that consideration of the motions to exceed word limits
and to dispense with the appendix be deferred pending further order of the court.
The Clerk is directed to send a copy of this order to appellant both by certified
mail, return receipt requested, and by first class mail.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until resolution of the remainder
of the appeal.
Per Curiam

Page 2

Case l:18-<

233-RC Document 153 Filed 01

.9 Page 1 of 1

AppOts

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
YI TAI SHAO,
Plaintiff,

Civil Action No.:

18-1233 (RC)

v.

Re Document Nos.:

31,45,58, 65, 75,
80,81,84, 117
142

JOHN G. ROBERTS, et al.,
Defendants.
ORDER
Denying Plaintiff’s Motion to Disqualify and for Change of Venue, Granting
Motions to Dismiss, Sua Sponte Dismissing All Claims Against All Remaining
Defendants, and Denying All Other Pending Motions as Moot
For the reasons stated in the Court’s Memorandum Opinion separately and
contemporaneously issued, Shao’s renewed motion to disqualify this Court and to change venue
(ECF No. 142) and motion to strike the McManis Defendants’ motion to dismiss (ECF No. 81)
are DENIED. The motions to dismiss by the California Judicial Defendants (ECF No. 31),
Janet Everson (ECF No. 45), the American Inn Defendants (ECF No. 58), the McManis
Defendants (ECF No. 65), Carole Tait-Stames (ECF No. 75-1), Esther Chung (ECF No. 80), the
Google Defendants (ECF No. 84), and the Santa Clara Defendants (ECF No. 117) are
GRANTED. All remaining claims against all other defendants are DENIED for lack of subject
matter jurisdiction. And because this case has been dismissed for lack of subject matter
jurisdiction, the remainder of the pending motions are DENIED AS MOOT.
SO ORDERED.
Dated: January 17, 2019

RUDOLPH CONTRERAS
United States District Judge

Case l:18-c

’33-RC Document 154 Filed 01/

9 Page 1 of 42

Appo/f

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
YI TAI SHAO,
Plaintiff,

Civil Action No.:

18-1233 (RC)

v.

Re Document Nos.:

31,45,58, 65,75,
80,81,84, 117,
142

JOHN G. ROBERTS, et al.,
Defendants.
MEMORANDUM OPINION
Denying Plaintiff’s Motion to Disqualify and for Change of Venue, Granting
Motions to Dismiss, Sua Sponte Dismissing All Claims Against All Remaining
, Defendants, and Denying All Other Pending Motions as Moot
I. INTRODUCTION
Plaintiff Yi Tai Shao, a California resident, has brought this suit against a wide variety of
defendants in connection with a California child custody case that has been ongoing since 2005.
In her amended complaint, Shao includes fourteen claims against sixty-seven named and fortysix unnamed defendants, including parties, attorneys, court clerks, judges, and third parties, all
linked in some way to the child custody case or to the multiple legal proceedings Shao has
instituted in connection with it over the past eight years. After the Court denied a motion to
disqualify, Shao has now filed a renewed motion to disqualify and for change of venue. Many of
the defendants have also moved to dismiss for lack of personal or subject matter jurisdiction and
for failure to state a claim. For the same reasons it denied the initial motion to disqualify, the
Court denies Shao’s renewed motion to disqualify and for change of venue. And because it finds
that it lacks personal jurisdiction or subject matter jurisdiction over all of Shao’s claims, the
Court dismisses this case.

Case l:18-cv

33-RC Document 154 Filed 01tt

Page 2 of 42

II. FACTUAL BACKGROUND
1. The Underlying Custody Case and Initial Custody Determination
In 2005, Shao filed for divorce from her now ex-husband, Tsan-Kuen Wang, in the
Superior Court of California, Santa Clara County. See Am. Compl.

5,8, ECF No. 16; In re

the Marriage of: Linda Shao and Tsan-Kuen Wang, No. 1-05-FL126882 (Cal. Sup. Ct.).1 Shao
and Wang initially agreed to split custody of their daughter 50/50. Id. f 87. Flowever, Shao’s
daughter began complaining about sexual abuse while in Wang’s care in early 2010, id., and the
County of Santa Clara investigated the claims, see id. ff 57-58. B.J. Fadem, a California
attorney, was appointed as guardian ad litem for Shao’s daughter in May 2010. See id. f 58.
After county workers allegedly conspired to keep Shao’s child away from her with Superior
Court employees; Wang’s attorney, David Sussman; and the judge assigned to her case, Judge
Edward Davila,2 see id.

43, 54-57, 71, Judge Davila issued an expedited custody order

depriving Shao of custody of her daughter on August 5, 2010, see id.

88-92.

On August 20, 2010, Shao hired attorneys James McManis, Michael Reedy, and
McManis Faulkner, LLP (“the McManis Defendants”) to challenge the expedited custody order.
See id.

98. However, Shao fired the McManis Defendants within a year after allegedly

realizing that they were engaged in a conspiracy with Sussman and Judge Davila to deprive her
of custody. See id. f 99-104. According to Shao, the conspiracy was facilitated by Judge Davila
and the McManis Defendants’ common membership in a chapter of the American Inns of Court,

l

The Court takes judicial notice of the dockets and published opinions for Shao’s related
state and federal lawsuits. See, e.g., Al-Aulaqi v. Panetta, 35 F. Supp. 3d 56, 67 (D.D.C. 2014)
(“A court may take judicial notice of facts contained in public records of other proceedings.”
(citing Covad Commc’ns Co. v. Bell Atlantic Co., 407 F.3d 1220, 1222 (D.C. Cir. 2005))).
2 Judge Davila now sits on the U.S. District Court for the Northern District of California,
following his appointment to the position in 2011.
2

AppoiS"

Case 1:18-C'

133-RC Document 154 Filed 01/

I Page 3 of 42

id. f 98, an organization that she alleges provides a nationwide platform to facilitate private ex
parte communications and judicial corruption, see id. ff 23, 335-36. Over the next three years,
several other Superior Court judges issued a variety of decisions in Shao’s custody case. See,
e.g., id. ff 103-105. Shao alleges that these judges, too, were involved in conspiracies to
deprive her of custody with Sussman or with some or all of the McManis Defendants. See, e.g.,
id. ff 102-103, 105. Shao alleges that a final custody order depriving her of the custody of her
daughter was eventually entered in November 2013. See id. ff 122.
At various points during the litigation, Shao appealed orders of the Superior Court. E.g.
id. ff 109-13, 128-29, 138. Shao’s appeals went first to the California Sixth District Court of
Appeal, then to the California Supreme Court, and for some to the United States Supreme Court.
E.g. id. If 128-29. Shao attributes the denial of her appeals at all appellate levels to a
conspiracy between the McManis Defendants and the judges and justices involved, again
facilitated by the platform for corruption offered by the American Inns of Court. E.g. id.
f109-13.
2. Malpractice Suit Against the McManis Defendants and Prefiling Injunction
After Shao fired the McManis Defendants, she brought suit against them for malpractice
in 2012. Id. f 141. The case was dismissed, and Shao refiled a malpractice suit against the
McManis Defendants in federal court in 2014. Id. f 142. Judge Lucy Koh dismissed the federal
suit and the dismissal was affirmed on appeal. Id. f 145. As with previous judicial decisions
going against her, Shao alleges that the judges involved all conspired with the McManis
Defendants to ensure she would not succeed, “through the influence [the McManis Defendants]
wield through their powerful giant social club The American Inns of Court.” Id. Following the
dismissal of her federal case, Shao moved to set aside the dismissal of her state malpractice suit.

3

App°f£

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 4 of 42

Id. U 146. The McManis Defendants responded by moving to declare Shao a vexatious litigant
under California law, and by asking for a prefiling injunction to issue against her. See id. f147.
The Superior Court granted the motion and issued a pre-filing injunction against Shao. See id.
3. Continued Litigation in the Custody Case and Alleged Hacking
In the past five years, Shao has extensively litigated her custody case. See generally id.
156-256. Shao alleges that the McManis Defendants have continued to conspire to deprive
her of the custody of her daughter, in a scheme involving the judges issuing decisions in her
cases, third parties connected to the litigation, and Wang and his attorney. See id. Shao places
the McManis Defendants at the center of the conspiracy, allegedly using their various
relationships and the connections they made through the American Inns of Court to “ensure that
SHAO not regain custody of her child ... [and] maintain[] their no causation defense to
malpractice.” Id.

159-160. She alleges that various California judicial defendants

“knowingly misused the vexatious litigant order” fraudulently obtained by the McManis
Defendants to block motions in her custody case. E.g. id. f 219. She believes that the many
judges involved in her case have engaged in a wide range of improprieties, including issuing
secret ex parte communications and court orders, illegally altering case dockets, and failing to
docket or maliciously dismissing her motions without review. See, e.g., id.

159-208. And

she alleges that the McManis Defendants organized “the same scheme of illegal notice, alteration
of docket and deterrence” in the United States Supreme Court, again through secret, corrupt
connections they made there through the American Inns of Court. See id. ff 257-58.
At some point in 2018, Shao “started posting on Youtube several radio show videos ...
about the judicial corruption going on in her cases.” Id. ^ 305. In response, Shao alleges that
Google and Youtube conspired with the McManis Defendants and Chief Justice Roberts to

4

Appov

Case l:18-c\

harass her, see id.

'33-RC Document 154 Filed 01/f

Arpp

1 Page 5 of 42

305-14, including by deleting comments on her Youtube videos, id.

306,

suspending her Google e-mail accounts, id. 1307, having vehicles follow her, id. If 308, putting
her under electronic surveillance, id. f 313, and hacking her computer, cell phone, and office
phone, id.

310-12. Shao attributes Google’s decision to conspire with Chief Justice Roberts

to a favorable decision he purportedly issued in a pending case Google had before the Supreme
Court. See id. f 314. Aside from their conspiracy with Google, Youtube, and Chief Justice
Roberts, Shao also alleges that the McManis Defendants arranged for hackers to infiltrate her
computer and alter or destroy files relating to her pending cases. See id.

315-19.

4. Procedural History of This Case
Shao brought the instant case on May 21, 2018. See Compl. at Tf 1, ECF No. 1. In her
amended complaint, filed on June 29, 2018, Shao brings claims against sixty-seven named
defendants: the McManis Defendants; the American Inns of Court, the Honorable William A.
Ingram American Inn of Court, and the San Francisco Bay Area American Inn of Court (the
“American Inn Defendants”); the McManis Defendants’ attorney in the malpractice action, Janet
Everson; United States Supreme Court Justices and clerks (the “Supreme Court Defendants”);3
judges and employees of the United States Judiciary (the “Federal Judicial Defendants”);4
members of Congress and several Congressional entities (the “Congressional Defendants”);5

3 The Supreme Court Defendants include the United States Supreme Court; Chief Justice
John G. Roberts; Justice Clarence Thomas; Justice Ruth Bader Ginsburg; Justice Stephen
Breyer; Justice Samuel Alito; Justice Sonia Sotomayor; Justice Elena Kagan; and Supreme Court
clerks Jordan Bickell and Jeff Atkins.
4 The Federal Judiciary Defendants include Judge Koh; Judge Clifford J. Wallace; Judge
Rudolph Contreras; and Jackie Francis, a clerk at the U.S. District Court for the District of
Columbia.
5 The Congressional Defendants include the U.S. House Judiciary Committee; the U.S.
Senate Judiciary Committee; Representative Eric Swalwell; and Senator Diane Feinstein.
5

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 6 of 42

former California Superior Court Judge Edward Davila and a large number of other judges and
employees of the California judicial system (together, the “California Judicial Defendants”);6
retired Justice of the California Sixth District Court of Appeal Conrad Rushing; the County of
Santa Clara and several of its employees (the “Santa Clara Defendants”);7 Google and Youtube
(the “Google Defendants”); and Wang, Sussman, Fadem, and several third parties who were at
some point or another involved in the custody action. 8
Most of the defendants have now moved to dismiss, including the McManis Defendants;
Everson; the American Inn Defendants; the California Judicial Defendants; the Santa Clara
Defendants; the Google Defendants; custody evaluator John Orlando; psychologist Carol TaitStames; alleged hacker Esther Chung; Fadem; and Fadem’s replacement as guardian ad litem for
Shao’s daughter, Elise Mitchell. See Docket, Shao v. Roberts, No. 18-cv-1233-RC (D.D.C.).
Shao has separately moved to strike a large number of motions and for judicial notice of a wide
variety of facts. See id.

6 The California Judiciary Defendants include the Supreme Court of California and its
Chief Justice Tani G. Cantil-Sakauye; the California Sixth District Court of Appeal and several
of its justices, Justice Mary J. Greenwood, Justice Patricia Bamattre-Maoukian, Justice Franklin
Elia, Justice Adrienne M. Grover, Justice Eugene Premo; the Clerk’s Office of the California
Sixth District Court of Appeal; the Superior Court of California, Santa Clara County and several
of its judges, Judge Maureen Folan, Judge Mary Ann Grilli, Judge Peter Kirwan, Judge Patricia
Lucas, Judge Beth McGowen, Judge Rise Pichon, Judge Joshua Weinstein, Judge Theodore
Zayner, and former Judge Edward Davila; Gregory Salvidar, Commissioner of the Superior
Court of California, Santa Clara County; and several employees of the Superior Court of
California, Santa Clara County, Rebecca Delgado, Lisa Herrick, Jill Sardeson, Sarah Scofield,
Susan Walker, and David Yamasaki.
7 The Santa Clara Defendants include the County of Santa Clara (named in the Complaint
through its Department of Family and Children’s Services and Department of Child Support
Services) and employees Misook Oh, Darryl Leong, and Mary L. Murphy.
8

Additional defendants include John Orlando, a custody evaluator appointed by the
Superior Court after the 2010 expedited custody order; Carole Tait-Stames, Wang and Shao’s
minor daughter’s psychologist; Elise Mary Mitchell, the guardian ad litem for Shao’s daughter
after Fadem withdrew; and two alleged hackers, Kevin L. Wamock and Esther Chung.
6

/Vpp o r 9

Case l:18-c\

33-RC Document 154 Filed 01/1

Page 7 of 42

Shao also moved to disqualify this Court and for a change of venue on July 6, 2018,
followed by a motion to stay these proceedings on August 5, 2018. See Pl.’s First Mot.
Disqualify at 1, ECF No. 19; Pl.’s Mot. Stay at 1, ECF No. 42. The Court denied both motions
on August 8, 2018. See Shao v. Roberts, No. 18-cv-1233-RC, ECF No. 48, slip op. at 1 (D.D.C.
Aug. 8, 2018). On December 4, 2018, Shao filed a renewed motion to disqualify this Court and
for change of venue. See Pl.’s Second Mot. Disqualify at 1, ECF No. 142.
All motions to dismiss and the renewed motion for disqualification are now ripe for
review.
III. ANALYSIS
The Court first reviews Shao’s renewed motion to disqualify and to change venue, before
addressing the pending motions to dismiss and the remaining claims against the non-moving
defendants. Because it restates much of the same arguments as her first motion, the Court denies
the renewed motion to disqualify and to change venue. And because the Court finds that all of
Shao’s claims should be dismissed on the basis of either personal jurisdiction or subject matter
jurisdiction, the Court grants the motions to dismiss, sua sponte dismisses all remaining claims,
and denies all other pending motions as moot.
A. Motion to Disqualify and for Change of Venue
Before reviewing the pending motions to dismiss, the Court briefly addresses Shao’s
renewed motion to disqualify and for change of venue. Shao brings her renewed motion
pursuant to 28 U.S.C. § 144 and 28 U.S.C. § 455. See Pl.’s Mem. Supp. Second Mot. Disqualify
at 20, ECF No. 142-1. Because Shao’s motion reasserts much of the same arguments brought in
her first motion, the Court denies the renewed motion.

7

AppOZD

Case l:18-cv

33-RC Document 154 Filed Ol/J

' Page 8 of 42

App 02/

First, Shao’s motion to disqualify this court pursuant to 28 U.S.C. § 144 fails to comply
with the requirements of § 144, and thus must be denied. Section 144 provides that “[w]henever
a party to any proceeding in a district court makes and files a timely and sufficient affidavit that
the judge before whom the matter is pending has a personal bias or prejudice either against him
or in favor of any adverse party, such judge shall proceed no further therein, but another judge
shall be assigned to hear such proceeding.” 28 U.S.C. § 144. As the Court explained in its
opinion denying Shao’s motion to stay, “submitting an affidavit to the Court under this provision
does not yield automatic recusal of the judge on the matter,” Williams v. New York City Housing
Auth., 287 F. Supp. 2d 247, 248 (S.D.N.Y 2003). Rather, the Court may deny the motion if the
affidavit or the motion itself are procedurally deficient. See Shao, No. 18-cv-1233-RC, slip op.
at 11.
Shao’s § 144 motion is deficient in a number of ways. As an initial matter, this is Shao’s
second such motion, when 28 U.S.C. § 144 clearly indicates that “[a] party may file only one
such affidavit in any case.” Id. Shao’s § 144 motion should be denied on this basis alone. In
addition, as with her motion to stay, Shao’s affidavit is not “accompanied by a certificate of
counsel of record stating that it is made in good faith.” 28 U.S.C. § 144. The Court explained in
its August 5, 2018 opinion that pro se parties are not excused from filing an attorney certification
in support of a § 144 motion and affidavit. See Shao, No. 18-cv-1233-RC, slip op. at 12. In this
renewed motion, Shao argues that several courts have considered § 144 motions made by pro se
plaintiffs despite the lack of a certification of good faith by counsel of record, see Pl.’s Mem.
Supp. Second Mot. Disqualify (“Pl.’s Second Mem. Supp.”), ECF No. 142-1, at 21 (citing
Williams, 287 F. Supp. 2d at 249; Melvin v. Social Sec. Admin., No. 5:09-cv-235-FL, 2010 WL
3743543, at *2 (E.D.N.C. Sept. 14, 2010)), or with certification only by “any member of the

8

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 9 of 42

App62-2-

bar,” when she is a member of the California Bar, see id. (citing United States v. Rankin, 1 F.
Supp. 2d 445, 450 (E.D. Pa. 1998)). Shao’s arguments are unavailing. First, these decisions are
from outside this circuit and not binding on this Court, and most courts to have addressed the
issue have required the certification by counsel of record for pro se § 144 motions. See Shao,
No. 18-cv-1233-RC, slip op. at 12. Second, Rankin is inapplicable to Shao’s situation because
the court there accepted the certification of “any member of the bar of the court.” Rankin, 1 F.
Supp. 2d at 450 (emphasis added). Shao is not a member of the bar of this Court. And finally,
the Williams court emphasized that the plaintiffs affidavit, “submitted pro se and without a
certificate of counsel of record, fail[ed] on this threshold matter.” Williams, 287 F. Supp. 2d at
249.9
Shao’s renewed motion for disqualification under 28 U.S.C. § 455 fares no better. To the
extent Shao’s § 144 affidavit sets forth the factual allegations forming the basis for that motion,
it alleges much of the same type of behavior the Court already determined not to warrant recusal

9 The court in Melvin proceeded to review the arguments made in a deficient affidavit “in
the spirit of the liberality afforded to pro se litigants.” Melvin, 2010 WL 3743543, at *2. Even
were this Court to do so here, Shao’s affidavit would still be procedurally deficient as untimely
and inadequately supported by facts. “Courts ‘have required the affidavit to be filed at the
earliest moment,”’ and the D.C. Circuit has explained that “the timeliness requirement is
‘[c]rucial to the integrity of the judicial process,’ as it ‘ensures that a party may not wait and
decide whether to file based on whether he likes subsequent treatment that he receives.’”
Klayman v. Judicial Watch, Inc., 278 F. Supp. 3d 252, 256 (D.D.C. 2017) (quoting S.E.C. v.
Loving Spirit Found., Inc., 392 F.3d 486, 492 (D.C. Cir. 2004)). Shao’s re-filing of a motion and
affidavit almost four months after this Court found the first motion to be deficient is thus
untimely. And while the Court must accept the factual allegations in a § 144 affidavit as true,
“the affidavit ‘must state facts as opposed to conclusions, and while the information and belief of
the affiant as to the truth of the allegations are sufficient, mere rumors and gossip are not
enough.’” Id. at 257 (quoting United States v. Hanrahan, 248 F. Supp. 471, 475 (D.C. Cir.
1965)). Because Shao’s allegations of corruption are all based on speculation and legal
conclusions derived from regularly conducted administration of this case’s docket, see Pl.’s
Second Mem. Supp. at. 22-29, her affidavit does not set forth a legally sufficient basis for
disqualification.
9

Case l:18-cv

33-RC Document 154 Filed 01/3

Page 10 of 42

App02-3

in its August 5, 2018 opinion. As discussed in that opinion, a judge is required to “disqualify
himself in any proceeding in which his impartiality might reasonably be questioned.” 28 U.S.C.
§ 455(a). In reviewing a § 455(a) challenge, the Court must objectively analyze whether a
“reasonable and informed observer would question the judge’s impartiality.” United States v.
Microsoft Corp., 253 F.3d 34, 114 (D.C. Cir. 2001). “[T]he mere appearance of bias is sufficient
to mandate recusal—whether there is actual bias is irrelevant.” Philip Morris USA, Inc. v.
United States FDA, 156 F. Supp. 3d 36, 49 (D.D.C. 2016). In addition, pursuant to § 455(b)(1),
a judge must also recuse himself “[wjhere he has a personal bias or prejudice concerning a party,
or personal knowledge of disputed evidentiary facts concerning the proceeding.” 28 U.S.C.S. §
455(b)(1). Unlike § 455(a), recusal under § 455(b)(1) requires the movant to “demonstrate
actual bias or prejudice based upon an extrajudicial source.” Cobell v. Norton, 237 F. Supp. 2d
71, 98 (D.D.C. 2003). And finally under § 455(b)(5)(i), a judge can be disqualified for being a
party to the proceeding. 28 U.S.C. § 455(b)(5)(i).
Neither § 455(a) nor § 455(b)(1) warrant recusal based on the allegations Shao brings in
this renewed motion because, as this Court noted in its August 8, 2018 opinion, Shao only offers
“bald allegations of a conspiracy,” Shao, No. 18-cv-1233-RC, slip op. at 8, that neither create the
appearance of partiality nor provide evidence of actual bias. Shao reasserts many of the
allegations in her initial motion, including that the Court purposefully interfered with filing,
docketing, and the issuance of summonses and default judgment, see Pl.’s Second Mem. Supp. at
27-29, engaged in improper ex parte communications with some of the parties, id. at 25, and
improperly named the case Shao v. Kennedy instead of Shao v. Roberts, purportedly to shield
Justice Roberts from public exposure, see id. at 28. Shao also makes additional allegations of
interference with filing, docketing, and the general administration of her case since the Court’s

10

Case l:18-cv-

53-RC Document 154 Filed 01/1

Page 11 of 42

August 8, 2018 opinion. See generally id. at 25-29. As the Court explained in that opinion,
Shao provides “no factual matter to form a basis for those allegations,” and instead “bases her
allegations on purely speculative conspiracy.” Shao, No. 18-cv-1233-RC, slip op. at 8. Shao
reads the clerical discrepancies between court documents and her communications with the
Court, and supposedly irregular timing of the issuance of summonses and clerk’s defaults, to
imply a broader conspiracy this Court is a part of to deny her justice. These allegations do not
create an appearance of impropriety under § 455(a) because they offer “no facts that would fairly
convince a sane and reasonable mind to question this Court’s impartiality.” Walsh v. Comey,
110 F. Supp. 3d 73, 77 (D.D.C. 2015). Because they offer no evidence of bias, the allegations
also do not require recusal under § 455(b)(1).
Similarly, § 455(b)(5)(i) does not warrant this Court’s recusal. As the Court noted in its
August 5, 2018 opinion, multiple courts have “made clear that disqualification is patently
unwarranted” in the circumstances where a plaintiff amends a complaint to add the assigned
judge as a defendant in an attempt at judge-shopping. See Shao, No. 18-cv-1233-RC, slip op. at
9-10 (citing cases). And the Court also noted that Shao’s amendment adding claims against this
judge were “very clearly an attempt at judge-shopping.” Id. at 9. In this renewed motion, Shao
again argues that her claims against this judge, and the threat of default they pose, warrant
recusal. See Pl.’s Second Mem. at 22-25. For reasons already elaborated on in the August 5,
2018 opinion, the Court rejects that argument.
Finally, Shao renews her request to disqualify the D.C. Circuit, the Third Circuit, and the
U.S. District Courts in Delaware, Pennsylvania, Virginia, and New Jersey because this judge has
professional and personal ties to those jurisdictions, and to transfer her case to New York. See
id. at 25; Shao, No. 18-cv-1233-RC, slip op. at 10. The Court denies that request for the same

11

Arpp 02f

Case l:18-c\

33-RC Document 154 Filed 01/:

i Page 12 of 42

App0lS

reasons it denied the request in Shao’s first motion to change venue. “Shao’s conspiratorial
allegations are ... an attempt to judge-shop and a vehicle to express her dissatisfaction with the
timeliness of this action,” and are “insufficient... to transfer her case to New York.” Shao, No.
18-cv-1233-RC, slip op. at 10.
B. Personal Jurisdiction
Next, several defendants have moved to dismiss Shao’s claims against them for lack of
personal jurisdiction. After briefly going over the legal standards on a motion to dismiss for lack
of personal jurisdiction, the Court analyzes in turn motions to dismiss by the California Judicial
Defendants, the McManis Defendants, the Santa Clara Defendants, Janet Everson, Esther Chung,
and Carole Tait-Stames.
1. Legal Standard
Rule 12(b)(2) of the Federal Rules of Civil Procedure directs a court to dismiss an action
when the court lacks personal jurisdiction over the defendant. Fed. R. Civ. P. 12(b)(2). The
plaintiff bears the burden of establishing that a court has personal jurisdiction. See FC Inv. Grp.
LC v. IFXMkts., Ltd., 529 F.3d 1087, 1091 (D.C. Cir. 2008). Factual discrepancies must be
resolved in favor of the plaintiff, but the court is not required to accept a plaintiffs “conclusory
statements” or “bare allegations” regarding the defendant’s actions in a selected forum. GTE
New Media Servs., Inc. v. BellSouth Corp., 199 F.3d 1343, 1349 (D.C. Cir. 2000).
There are two types of personal jurisdiction: general (sometimes called “all-purpose”)
jurisdiction and specific (sometimes called “action-linked”) jurisdiction. Both types are
independently sufficient for a court to exercise personal jurisdiction over a party. See BristolMyers Squibb Co. v. Super. Ct. of Cal., 137 S. Ct. 1773, 1780 (2017). “For an individual, the
paradigm forum for the exercise of general jurisdiction is the individual’s domicile; for a

12

Case l:18-cv

33-RC Document 154 Filed 01/]

Page 13 of 42

corporation, it is an equivalent place, one in which the corporation is fairly regarded as at home.”
Id. (quoting Goodyear Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915, 924 (2011)). A
court with general jurisdiction over a defendant “may hear any claim against that defendant, even
if all the incidents occurred in a different State.” Id. (quoting Goodyear, 564 U.S. at 919).
By contrast, specific jurisdiction requires that the suit “arise out of or relate to the
defendant’s contacts with the forum.” Bristol-Myers, 137 S. Ct. at 1780 (internal citations
omitted). To exercise specific personal jurisdiction over a non-resident, the court must engage in
a two-step analysis to determine (1) whether jurisdiction is appropriate under the state’s longarm statute and (2) whether notions of due process are satisfied by exercising jurisdiction over
the non-resident. GTE New Media Servs., 199 F.3d at 1347. The D.C. long-arm statute, in
pertinent part, provides that the District of Columbia may exercise personal jurisdiction over a
person for claims for relief for “causing tortious injury in the District of Columbia,” including
“causing tortious injury ... by an act or omission outside the District Columbia if [the person]
regularly does or solicits business, [or] engages in any other persistent course of conduct” in the
District of Columbia. D.C. Code § 13-423(a).
Due process requires a plaintiff to demonstrate “minimum contacts with [the forum state]
such that the maintenance of the suit does not offend ‘traditional notions of fair play and
substantial justice.’” Int’l Shoe Co. v. Washington, 326 U.S. 310, 316 (1945) (quoting Milliken
v. Meyer, 311 U.S. 457, 463 (1940)). These contacts must be grounded in “some act by which
the defendant purposefully avail[ed] itself of the privileges of conducting activities within the
forum state, thus invoking the benefits and protection of its laws.” Asahi Metal Indus, v. Super.
Ct. of Cal., 480 U.S. 102, 109 (1987) (quoting Burger King v. Rudzewicz, 471 U.S. 462, 475
(1985)). That is, “the defendant’s conduct and connection with the forum State [must be] such

13

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 14 of 42

Apf>e>27

that he should reasonably anticipate being haled into court there.” World-Wide Volkswagen
Corp. v. Woodson, 444 U.S. 286, 297 (1980). It is “essential in each case that there be some act
by which the defendant purposefully avails itself of the privilege of conducting activities within
the forum State, thus invoking the benefits and protections of its laws.” Creighton Ltd. v. Gov. of
the State of Qatar, 181 F.3d 118, 127 (D.C. Cir. 1999) (quoting Hanson v. Denckla, 357 U.S.
235, 253 (1958)).
2. Application to Shao’s Complaint
In response to motions to dismiss by the moving defendants, Shao argues that the Court
has specific jurisdiction over each because all of the California-based defendants engaged in a
common conspiracy with D.C.-based defendants. As detailed below for each moving defendant,
the Court disagrees. Conspiracy jurisdiction is “a form of long-arm jurisdiction in which the
defendant’s ‘contact’ with the forum consists of the acts of the defendant’s co-conspirators
within the forum.” Youming Jin v. Ministry of State Sec., 335 F. Supp. 2d 72, 78 (D.D.C. 2004).
However, the minimum requirements of due process cannot be “sidestepped under the guise of
conspiracy jurisdiction.” Id. at 80 n.5. Accordingly, ‘“[bjald speculation’ or a ‘conclusory
statement’ that individuals are co-conspirators is insufficient to establish jurisdiction under a
conspiracy theory.” Jungquistv. Sheikh Sultan Bin Khalifa Al Nahyan, 115 F.3d 1020, 1031
(D.C. Cir. 1997) (quoting Naatex Consulting Corp. v. Watt, 722 F.2d 799, 787 (D.C. Cir. 1983)).
Even when personal jurisdiction is based on a conspiracy theory, purposeful availment is still
required. Youming Jin, 335 F. Supp. 2d at 80. To meet this requirement, the plaintiff must assert
with particularity “the conspiracy as well as the overt acts within the forum taken in furtherance
of the conspiracy.” Jungquiist, 115 F.3d at 1031 (quoting Dooley v. United Techs. Corp., 786 F.
Supp. 65, 78 (D.D.C. 1992)). Here, Shao has failed to allege specific facts beyond “bare

14

Case l:18-c\i

33-RC Document 154 Filed 01/]

Page 15 of 42

assertions” to meet her burden of establishing that each of the moving defendants purposefully
availed themselves of the District of Columbia by conspiring with D.C.-based defendants, and
the Court thus cannot properly exercise personal jurisdiction over the moving defendants.
a. The California Judicial Defendants
Shao’s claims against the California Judicial Defendants are barred for lack of personal
jurisdiction. In their motion, the California Judicial Defendants argue that they are all residents
of California alleged to have acted wrongfully through California state court decisions, and that
Shao has not pointed to any act committed within the District of Columbia that would warrant
the exercise of personal jurisdiction. See California Judicial Defs.’ Mem. Supp. Mot. Dismiss at
4-5, ECF No. 31. Shao does not contest that the California Judicial Defendants are residents of
California. See generally Am. Compl.

5-85. She likewise does not contest that all the

alleged actions relating to them were acts in California courts by California judicial officers or
judicial employees of the state of California. See generally id.

86-320 . Shao argues that

personal jurisdiction should nonetheless be extended to the California Judicial Defendants
because of their alleged conspiracy with defendants who are subject to personal jurisdiction in
the District of Columbia. See Pl.’s Opp’n California Judicial Defs.’ Mot. Dismiss (“Pl.’s
California Judicial Defs. Opp’n) at 14-20, ECF No. 43. Because Shao offers no more than bare
assertions that the California Judicial Defendants are engaged in a conspiracy, the Court
dismisses her claims against those defendants.
Shao argues for jurisdiction over the California Judicial Defendants because the injuries
she suffered were “anticipated by the California defendants to be within the jurisdiction as part
of the common scheme of conspiracies.” Pl.’s California Judicial Defs. Opp’n at 14. She argues
that the California Judicial Defendants had minimum contacts through a “common scheme” of
conspiracies with, inter alia, the McManis Defendants and the Supreme Court Defendants, and
15

pp 02&

Case l:18-cv

33-RC Document 154 Filed 01/J

Page 16 of 42

thus that they are subject to personal jurisdiction in the District of Columbia because “many
defendants worked in D.C.” Id. at 14-15. And she contends that the California Judicial
Defendants were on notice of a potential suit because they received mailed notice that the United
States Supreme Court denied her requests for review of California judicial decisions. See id. at
14. This argument is unpersuasive and ignores the purposeful availment requirement of personal
jurisdiction.
Even construing Shao’s assertions liberally, her argument merely presents conclusory
statements about the alleged conspiracy without alleging any specific facts. For example, Shao
alleges that the “Santa Clara County Court, California Sixth District Court of Appeal and
California Supreme Court and the named justices/judges ... plotted to stall Plaintiffs access to
the courts and access to appeals.” Pl.’s California Judicial Defs. Opp’n at 15. She similarly
states in the amended complaint that the California Defendants engaged in a “scheme of illegal
notice, alteration of docket and deterrence” in coordination with the United States Supreme
Court. Am. Compl. f 257. But beyond these conclusory assertions purporting to explain the
wrongful denials of her various appeals, Shao does not allege any concrete facts to show that the
California Judicial Defendants were engaged in a wide-ranging conspiracy, much less one
involving individuals in the District of Columbia. Shao’s amended complaint simply goes
through the procedural history of her various cases and concludes from the many decisions she
disagrees with that the California Judicial Defendants must have conspired with defendants
based in D.C.—the Supreme Court Defendants, Congressional Defendants, this Court, and
Francis—to continue denying her custody of her child. Shao summarily asserts that “any
reasonable attorney or member of the public ... would believe that there was a conspiracy.” Id.
f 184; see also id. Iff 296-97 (concluding from Supreme Court Justices’ failure to recuse

16

Case l:18-c\

33-RC Document 154 Filed Ol/.'1

Page 17 of 42

themselves from ruling on her cases that they must have “conspired in one accord not to perform
their Constitutionally imposed duty to decide on the ... Requests for Recusal”). Accordingly,
Shao’s conspiracy argument presents nothing more than bald speculation that must be rejected
by this Court. See Jungquist, 115 F.3d at 1031. The California Judicial Defendants’ motion to
dismiss is granted.
b. The McManis Defendants
Next, the McManis Defendants also move to dismiss Shao’s complaint for lack of
personal jurisdiction. See generally McManis Defs.’ Mot. Dismiss, ECF No. 65. In response,
Shao seeks to strike the motion to dismiss for failure to respond to the Amended Complaint
within the required twenty-one-day deadline specified by Fed R. Civ. P. 12. See Pl.’s Mot.
Strike McManis Defs.’ Mot. Dismiss, ECF No. 81. Because Shao has failed to meet her burden
of proving proper service, the Court denies her motion to strike. And because Shao does not
allege facts that show sufficient minimum contacts with the District of Columbia, the Court
grants the McManis Defendants’ motion to dismiss for lack of personal jurisdiction.
i. Motion to Strike
In her motion to strike, Shao argues that the McManis Defendants’ motion to dismiss
should be stricken as untimely because it was not filed within the 21 days required under Fed. R.
Civ. P. 12, or by August 10, 2018, and instead was filed on August 24, 2018. See Pl.’s Mem.
Supp. Mot. Strike, ECF No. 81-1. The McManis Defendants retort that the motion to dismiss
was timely because Shao never properly served her amended complaint. McManis Defs.’ Opp’n
Mot. Strike, ECF No. 98. The Court agrees.
Under the Federal Rules of Civil Procedure, a defendant must respond to a complaint
within 21 days. Fed. R. Civ. P. 12(a)(l)(A)(i). However, this twenty-one-day period does not

17

ApP^0

Case l:18-c\

33-RC Document 154 Filed 01/.'

) Page 18 of 42

App03i I

begin until the defendant is properly served. See Mann v. Castiel, 681 F.3d 368, 373 (D.C. Cir.
2012). The plaintiff bears the burden of demonstrating that the defendant has been sufficiently
served. See Roland v. Branch Banking & Tr. Corp., 149 F. Supp. 3d 61, 64 (D.D.C. 2015).
“[T]o do so, [s]he must demonstrate that the procedure employed satisfied the requirements of
the relevant portions of Rule 4 and any other applicable provision of law.” Id. at 64-65 (quoting
Light v. Wolf, 816 F.2d 746, 751 (D.C. Cir. 1987)). If the summons is not delivered personally
or to an individual’s usual place of abode, Rule 4 requires that it be served by “delivering a copy
of [the summons] to an agent authorized by appointment or by law to receive service of process.”
Fed. R. Civ. P. 4(e) (2). A signed return of service “constitutes prima facie evidence of valid
service, which can be overcome only by strong and convincing evidence.” Gates v. Syrian Arab
Republic, 646 F. Supp. 2d 79, 85-86 (D.D.C. 2009) (citing O’Brien v. R.J. O’Brien Assocs., Inc.,
998 F. 2d 1394, 1398 (7th Cir. 1993)).
Here, the McManis Defendants present “strong and convincing evidence” that Shao has
failed to properly serve the complaint. Shao asserts that her agent properly served the McManis
Defendants, citing the proof of service filed with the court. See Pl.’s Mem. Supp. Mot. Strike at
3. The proof of service notes that the summonses were left with two McManis Faulkner
employees, “[a] lady who is slander [sic] with golden hair” and “another male, less than 5’ 6”
with black hair wearing glasses,” both of whom allegedly claimed to be authorized to accept
service. Return of Service at 1, ECF No. 74. However, the name of these individuals or their
signature are not included. See id. Rather, the proof of service is signed by Shao’s agent,
Peychen Young, because both individuals “refused to sign receipt nor giving out [sic] their
names.” Id.

18

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 19 of 42

App 03Z

This admission alone suggests that Shao has failed her burden to establish sufficient
service of process on the McManis Defendants. The employees in question deny that they ever
told Shao’s agent they were authorized to accept service, Declaration of Manuel Carvajal

4-6,

McManis Defs.’ Opp’n Mot Strike Ex. 1, ECF No. 98-1; Declaration of William Faulkner

3-

4, McManis Defs.’ Opp’n Mot Strike Ex. 2, ECF No. 98-2, and the fact that they refused to sign
receipt of the complaint further casts doubt on Shao’s agent’s assertion that they claimed to be
authorized to accept service. In any event, “claims by an agent of having authority to receive
process or the fact that an agent actually accepts process is not enough to satisfy the service
requirements of Rule 4(e)(2).” Fenwick v. United States, 691 F. Supp. 2d 108, 113 (D.D.C.
2010) (internal citations omitted); see also Schwarz v. Thomas, 222 F.2d 305, 308 (D.C. Cir.
1955) (finding that statements of alleged agents are not sufficient evidence of authority to accept
process). Rather, if the summons is left with an agent, that agent must be “authorized by
appointment or by law to receive service of process.” Fed. R. Civ. P. 4(e)(2). Here, both the
McManis Defendants and the employees involved deny that the employees were authorized to
accept service of process. See McManis Defs.’ Opp’n Mot Strike at 3. Thus, the Court finds that
Shao has failed to make proper service upon the McManis Defendants, and the motion to quash
is denied.10

10 Even if it found that the McManis Defendants’ motion to dismiss was untimely, the
Court would still grant leave to file the motion nunc pro tunc because of the strong preference
for resolving disputes on the merits rather than on purely procedural grounds. See, e.g., Hawkins
v. Washington Metropolitan Area Transit Auth., 311 F. Supp. 3d 94, 102 (D.D.C. 2018) (noting
“the Federal Rules of Civil Procedure’s ‘clear preference to resolve disputes on their merits’”
(quoting Cohen v. Bd. Of Trustees of the Univ. ofDist. of Columbia, 819 F.3d 476, 482-83 (D.C.
Cir. 2016))); Acree v. Republic ofIraq, 658 F. Supp. 2d 124, 128 (D.D.C. 2009) (“[B]ecause
there is a strong preference for resolving disputes on the merits, district courts may, in
appropriate circumstances, exercise their discretion against denying a motion on purely
procedural grounds.” (citing cases)).
19

Case l:18-cv-

33-RC Document 154 Filed 01/1

Page 20 of 42

& PP&33

ii. Personal Jurisdiction
Similarly to the California Judicial Defendants, the Court cannot exercise personal
jurisdiction over the McManis Defendants because Shao has failed to show that they have
sufficient minimum contacts with the District of Columbia. Shao acknowledges that the
McManis Defendants are residents of California for the purposes of personal jurisdiction. See
Am. Compl.

27-29. Likewise, the Amended Complaint makes clear that her claims against

the McManis Defendants arise out of a custody dispute and malpractice suit which occurred in
state and federal court in California. See generally Am. Compl. However, while Shao did not
file an opposition to the McManis Defendants’ motion to dismiss, the amended complaint also
makes clear that, as with the California Judicial Defendants, she believes the McManis
Defendants engaged in a conspiracy with D.C.-based defendants over whom this Court does
have personal jurisdiction. Shao alleges in the Amended Complaint that McManis “aided and
abetted the ... irregularities that took place in the US Supreme Court” with respect to her cases
and “likely ... was influencing Judge Contreras to deter SHAO from suing his judicial friends.”
Id. f 27. She similarly alleges that all three McManis Defendants conspired with Chief Justice
Roberts to harass her. Id. f^f 304—05.
As with the California Judicial Defendants, Shao fails to assert any facts beyond
conclusory assertions to support her allegations of conspiracy. Shao does not point to any
evidence that could link the McManis Defendants to D.C.-based defendants, and instead
summarily concludes that they “appeared to conspire,” id., from the various legal decisions
adverse to her over the past eight years. Without more, Shao has not demonstrated the required
purposeful availment and this Court does not have personal jurisdiction over the McManis

20

Case l:18-cv

33-RC Document 154 Filed 01/3

Page 21 of 42

Defendants. Accordingly, the McManis Defendants’ motion to dismiss for lack of personal
jurisdiction is granted.
c. The Santa Clara Defendants
The Court also does not have personal jurisdiction over the Santa Clara Defendants. The
Amended Complaint acknowledges that Leong, Murphy, and Oh are employees in Santa Clara
County, and that the Santa Clara Defendants are California residents who allegedly caused her
injuries through legal proceedings in California state court. See Am. Compl. at

56-57; 61-63.

Shao nonetheless claims that this Court has personal jurisdiction over the Santa Clara Defendants
because they were “co-conspirators in the common scheme of permanent parental [deprival]”
involving D.C.-based defendants. Pl.’s Opp’n to Santa Clara Defs.’ Mot. Dismiss (“Pl.’s Santa
Clara Opp’n”) at 5, ECF No. 135. But, as the Santa Clara Defendants point out in their reply,
“Shao must allege specific, plausible facts connecting the [Santa Clara] Defendants to a
conspiracy to establish personal jurisdiction over them.” Santa Clara Defs.’ Reply at 2, ECF No.
139 (emphasis added). Shao has not done so here when, aside from summarily concluding that
the Santa Clara Defendants were part of a “common scheme to rob away Plaintiffs child custody
illegally,” Pl.’s Santa Clara Opp’n at 8, she does not point to any facts that would indicate the
Santa Clara Defendants’ involvement in a conspiracy involving defendants based in D.C.
Accordingly, the Court must grant the Santa Clara Defendants’ motion to dismiss for lack of
personal jurisdiction.
d. Janet Everson
Likewise, Shao’s claims against Janet Everson are barred by lack of personal jurisdiction.
Everson argues that the Amended Complaint makes “no allegations connecting [her] to the
District of Columbia.” Everson Mot. Dismiss at 3, ECF No. 45. In response, Shao again asserts

21

Case l:18-cv-

13-RC Document 154 Filed 01/1'

Page 22 of 42

Appo

personal jurisdiction over Everson based on a conspiracy theory of personal jurisdiction. See
Pl.’s Opp’n Everson Mot. Dismiss (“Pl.’s Everson Opp’n”) at 3-9, ECF No. 88. However, Shao
fails to allege any specific facts beyond conclusory assertions to indicate that Everson should be
subject to personal jurisdiction in the District of Columbia. The Amended Complaint recognizes
that Everson is a resident of California and that the asserted claims against her arise out of a legal
dispute in state and federal courts located in California. See generally Am. Compl. Shao’s basis
for extending personal jurisdiction over Everson is her alleged “active participation of [sic] the
common scheme to continuously rob away Plaintiffs child custody illegally,” Pl.’s Everson
Opp’n at 6, when the conspiracy involves “a group of defendants ... in California and a group of
defendants ... in the District of Columbia,” id. at 8. But as with the California Judicial
Defendants, Shao alleges no specific facts to support her conclusion that Everson conspired with
D.C.-based defendants, and the argument must thus be rejected by this court. Accordingly, all
claims against Everson are dismissed for lack of personal jurisdiction.
e. Esther Chung
Shao’s claims against Esther Chung are also barred by lack of personal jurisdiction. In
the Amended Complaint, Shao only indicates that Chung is a California resident, Am. Compl. U
69, who “severely hacked” into her files, id. U 315. Accordingly, Chung argues in her motion to
dismiss that Shao “does not plead any facts showing that [Chung] ... has any contacts with the
District of Columbia,” and thus that the Court does not have personal jurisdiction over her.
Chung Mot. Dismiss at 4, ECF No. 80. Shao again asserts conspiracy jurisdiction to claim
personal jurisdiction over Chung, arguing that “[t]here is undoubtedly substantial connection of
this forum to the complained conspiracies based on [Chung]’s active participation of [sic] the

22

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 23 of 42

common scheme [of parental deprival].” Pl.’s Opp’n to Chung Mot. Dismiss at 11, ECF No.
104.
However, as with the other moving defendants, Shao has failed to allege specific facts
that support her allegations of a conspiracy. Shao alleges in the Amended Complaint that “3,000
files on three laptops of hers had been severely hacked by three specific individuals,” including
Chung, based on the fact that “the authors’ names for these files were altered from SHAO’s
names to those individuals’ names.” Am. Compl. f 315. Setting aside Shao’s preposterous
contention that a different author name for documents located on her computer necessarily
indicates she was hacked—when any shared document modified by anyone could have resulted
in a change to the author name field—Shao does not allege any facts to support a connection
between Chung and the D.C.-based Defendants. Instead, she alleges that one of the so-called
“hackers” “works closely with Intel Corp.,” and that “Intel Corp. is closely connected with James
McManis,” thus creating the tie to the overall conspiracy. Id. at f 316. Even viewing Shao’s
claims liberally, without more specific facts the Court cannot accept these “bald speculations” as
the basis to find a conspiracy and to exercise personal jurisdiction over Chung. Accordingly, the
Court grants Chung’s motion to dismiss.
f

Carol Tait-Starnes

Finally, Shao’s claims against Carol Tait-Starnes are barred for lack of personal jurisdiction.
The Amended Complaint is very sparse on allegations relating to Tait-Starnes, who is only
alleged to have improperly participated in Shao’s custody case as a psychologist for her child.
See Am. Compl. ^ 126. Again, the Amended Complaint acknowledges that Tait-Starnes is a
California resident, id. ^ 60, whose allegedly improper actions were taken in a California legal
proceeding. Tait-Starnes argues in her motion to dismiss that the Court does not have personal

23

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 24 of 42

jurisdiction over her because all claims against her are based on actions that occurred in
California, see Tait-Stames Mot. Dismiss at 2, ECF No. 75-1, and Shao has not filed an
opposition. The Court agrees with Tait-Stames. To the extent Shao would have argued that
Tait-Stames is part of the same broader conspiracy Defendants are all alleged to have been a part
of, the complete lack of facts relating to Tait-Stames in the Amended Complaint—let alone to
any connection she may have had to defendants based in D.C.—defeats that argument.
C. Subject-Matter Jurisdiction
Next, the Court dismisses Shao’s remaining claims for lack of subject matter jurisdiction.
“Federal courts are courts of limited jurisdiction, and the law presumes that ‘a cause lies outside
this limited jurisdiction.”’ Morris v. United States Sentencing Comm ’n, 62 F. Supp. 3d 67, 72
(D.D.C. 2014) (quoting Kokkonen v. Guardian Life Ins. Co. ofAm., 511 U.S. 375, 377 (1994)).
Subject matter jurisdiction is a requirement that can never be waived. Gonzalez v. Thaler, 565
U.S. 134, 141 (2012). Accordingly, “[wjhen a requirement goes to subject-matter jurisdiction,
the courts are obligated to consider sua sponte issues that the parties have disclaimed or have not
presented.” Gonzalez, 565 U.S. at 141 (citing United States v. Cotton, 535 U.S. 625, 630
(2002)). Because Shao has proceeded pro se, the allegations in her complaint must be construed
liberally. E.g., Erikson v. Pardus, 551 U.S. 89, 94 (2007) (“A document filed pro se is ‘to be
liberally construed’” (citations omitted)). However, “even a pro se plaintiff must meet his
burden of proving that the Court has subject matter jurisdiction over the claims, including when
the court raises the issue sua sponte.” Fontaine v. JPMorgan Chase, N.A., 42 F. Supp. 3d 102,
106 (D.D.C. 2014). Despite the requirement to liberally construe a pro se complaint, this
“benefit is not [] a license to ignore the Federal Rules of Civil Procedure.” Sturdza v. United
Arab Emirates, 658 F. Supp. 2d 135, 137 (D.D.C. 2009).

24

AppoB7

Case l:18-cv-

13-RC Document 154 Filed 01/1'

Page 25 of 42

Here, the Court sua sponte dismisses all claims against all remaining defendants for lack
of subject matter jurisdiction. First, this Court lacks subject matter jurisdiction over the claims
for money damages against Judge Rushing and Francis on the basis of absolute judicial
immunity. Next, this Court lacks subject matter jurisdiction over all remaining claims against
the Supreme Court Defendants, the Federal Judicial Defendants, the Congressional Defendants,
and Judge Rushing for lack of standing. The Court also lacks subject matter jurisdiction over
claims against the American Inn Defendants, the Google Defendants, and Wamock because
those claims are patently insubstantiable. And finally, the Court lacks subject matter jurisdiction
over the aiding and abetting claims against Orlando, Fadem, Mitchell, Sussman, and Wang
because these claims do not involve a federal question.
1. Absolute Judicial Immunity
Judge Rushing and Francis, who are sued for money damages, have not filed motions to
dismiss. The Court dismisses the claims for money damages against these defendants sua sponte
under the doctrine of absolute judicial immunity.
a. Legal Standard
It is well established that courts must dismiss complaints in a civil action in which a party
“seeks monetary relief from a defendant who is immune from such a relief.” 28 U.S.C. §
1915A(b)(2); see also id. § 1915(e)(2)(B)(iii). “Judges are absolutely immune from suits for
money damages for ‘all actions taken in the judge’s judicial capacity, unless these actions are
taken in complete absence of all jurisdiction.’” Thomas v. Wilkins, 61 F. Supp. 3d 13, 17
(D.D.C. 2014) (quoting Sindram v. Suda, 986 F.2d 1459, 1460 (D.C. Cir. 1993)). “[T]he scope
of the judge’s jurisdiction must be construed broadly where the issue is the immunity of the
judge.” Stump v. Sparkman, 435 U.S. 349, 356 (1978). Additionally, “a judge will not be

25

Case l:18-cv-

13-RC Document 154 Filed 01/1'

Page 26 of 42

deprived of immunity because the action he took was in error, was done maliciously, or was in
excess of authority.” Id. In determining whether a judge was acting in his judicial capacity,
courts should look to the “nature of the act itself, i.e., whether it is a function normally
performed by a judge, and to the expectations of the parties, i.e. whether they dealt with the
judge in his judicial capacity.” Mireless v. Waco, 502 U.S. 9, 12 (1991) {quoting Stump, 435
U.S. at 362).
In addition, “[cjlerks, like judges, are immune from damage suits for performance of
tasks that are an integral part of the judicial process.” Thomas, 61 F. Supp. 3d at 19 (quoting
Sindram, 986 F.2d at 1460); see also Roth v. King, 449 F.3d 1272, 1287 (D.C. Cir. 2006) (“It is
well established that judicial immunity ‘extends to other officers of government whose duties are
related to the judicial process’” (quoting Barr v. Matteo, 360 U.S. 564, 569 (D.D.C. 1959))).
Tasks that are an integral part of the judicial process include a court administrator’s “receipt and
processing of a litigant’s filings.” Sibley v. U.S. Supreme Court, 786 F. Supp. 2d 338, 344
(D.D.C. 2011) (finding that the “receipt and processing of a litigant’s filings are part and parcel
of the process of adjudicating cases”).
b. Claimsfor Money Damages Against Judge Rushing and Francis
Shao brings claims for money damages against Judge Rushing and Francis. Because
these claims involve acts solely taken in their judicial capacity, both benefit from absolute
immunity, and the Court must accordingly dismiss Shao’s claims for money damages against
these two defendants.
First, Shao alleges in the Amended Complaint that Judge Rushing created a false docket
entry in one of her cases, see Am. Compl. fflj 31, 377, causing Shao to file “multiple motions in
order to avoid her appeal[s]... to be dismissed [sic],” id. f 377. Shao seeks $20,000 in damages

26

Appo3f

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 27 of 42

Appofd

for attorney’s fees and costs relating to those motions. Id. The court need not reach the merits of
her allegations because a judge acting in his judicial capacity “will not be deprived of immunity
because the action he took was done in error, was done maliciously, or was in excess of his
authority.” Stump, 435 U.S. at 356. Here, Shao’s allegations against Judge Rushing are all in
connection with previous California state appellate litigation over which Judge Rushing was
presiding. Thus, even read liberally, Shao’s allegations involve “action[s] [Rushing] took ... in
error,... maliciously, or ... in excess of his authority” in his official judicial capacity, Stump,
435 U.S. at 356, and Shao’s claims for money damages are barred by absolute judicial immunity.
The Court accordingly dismisses all claims for money damages against Judge Rushing for lack
of subject matter jurisdiction.
Likewise, Shao seeks money damages against an employee of the Clerk’s Office at the
U.S. District Court for the District of Columbia, Jackie Francis, for “deterring filing and creating
false docket [sic],” in violation of Shao’s First Amendment rights. Am. Compl. If 426. Shao
alleges that these acts were not committed in an official capacity, and thus are not protected by
judicial immunity. See id. However, even reading Shao’s complaint liberally, Francis’s alleged
filing deterrence and creation of false docket entries qualify as “receipt and processing of a
litigant’s filing,” and thus fall under the scope of actions that are an integral part of the judicial
process. See, e.g., Reddy v. O'Connor, 520 F. Supp. 2d 124, 130 (D.D.C. 2007) (holding that a
“deputy clerk's alleged refusal to file documents [the] plaintiff submitted” was an action
“quintessentially ‘judicial’ in nature because [it was] an integral part of the judicial
process”). Accordingly, the allegations against Francis involve acts within her judicial capacity,
and she is entitled to the protection of absolute judicial immunity on claims for money damages.

27

Case l:18-cv

33-RC Document 154 Filed 01/3

Page 28 of 42

Appoij

The Court dismisses all claims for money damages against Francis for lack of subject matter
jurisdiction.
2. Standing
The Supreme Court Defendants, Federal Judicial Defendants, Congressional Defendants,
and Judge Rushing have not filed motions to dismiss. However, this Court lacks the power to
give Shao the relief she seeks on all remaining claims against these Defendants, and Shao thus
fails the redressability requirement of standing. Because Shao lacks standing to bring her claims,
the Court sua sponte dismisses all remaining claims against the Supreme Court Defendants, the
Federal Judicial Defendants, the Congressional Defendants, and Judge Rushing for lack of
subject matter jurisdiction.
a. Legal Standard
Standing “is an essential and unchanging part of the case-or-controversy requirement of
Article III.” Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992); see also, e.g., Weaver’s Cove
Energy, LLC v. R.I. Dep’t ofEnvtl. Mgmt., 524 F.3d 1330, 1334 (D.C. Cir. 2008) (dismissing
action sua sponte for lack of standing); Dorsey v. District of Columbia, 747 F. Supp. 2d 22, 27
(D.D.C. 2010) (same). The party seeking to invoke the jurisdiction of a federal court bears the
burden of establishing the elements of standing. Huron v. Cobert, 809 F.3d 1274, 1279 (D. C.
Cir. 2016). First, the injured party “must have suffered an ‘injury in fact.’” Lujan, 504 U.S. at
560. (citations omitted). An “injury in fact,” requires the plaintiff to show “an invasion of a
legally protected interest.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1548 (2016) (quoting Lujan,
504 U.S. at 560). The invasion must be both “concrete and particularized,” Lujan, 504 U.S. at
560, and ‘“actual or imminent,’ not ‘conjectural’ or ‘hypothetical.’” Id. (citing Whitmore v.
Arkansas, 495 U.S. 149, 155 (1990)). Second, the injured party must show “a causal connection

28

Case l:18-cv-

13-RC Document 154 Filed 01/1’

Page 29 of 42

between the injury and the conduct complained of.” Lujan, 504 U.S. at 560. That is, the injured
party must show that the injury is “fairly ...trace [able] to the challenged action of the defendant”
and not the result of “the independent action of some third party not before the court.” Id.
Finally, standing requires a showing of redressability—“a likelihood that the requested relief will
)

redress the alleged injury.” Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 103 (1998).
Failing to establish any one of these three elements is sufficient to defeat the standing of an
injured party. US Ecology, Inc. v. U.S. Dep’t ofInterior, 231 F.3d 20, 24 (D.C. Cir. 2000).
When reviewing whether an injured party has standing, the court must “analyze these elements
as if the plaintiffs were to be successful in their claim” rather than assessing the merits of the
claim. McNeil v. Brown, No. 17-cv-2602, 2018 WL 4623057, at *6 (D.D.C. Sept. 26, 2018)
(citing In re Navy Chaplaincy, 534 F.3d 756, 760 (D.C. Cir. 2008)).
b. Application to Shao’s Claims
Shao lacks standing to bring her remaining claims against the Supreme Court Defendants,
Federal Judicial Defendants, Congressional Defendants, and Judge Rushing because this Court is
not capable of granting the relief she seeks. Because redressability evaluates whether the relief
requested is “likely [to] alleviate the particularized injury alleged,” West v. Lynch, 845 F.3d
1228, 1235 (D.C. Cir. 2017) (quoting Fla. Audubon Soc’y v. Bentsen, 94 F.3d 658, 663-64 (D.C.
Cir. 1996)), it “requires that the court be able to afford relief through the exercise of its power,”
Franklin v. Massachusetts, 505 U.S. 788, 825 (1992). Correspondingly, a plaintiff “must show
in the first instance that the court is capable of granting the relief they seek.” McNeil, 2018 WL
4623057 at *6 (citing Newdow v. Roberts, 603 F.3d 1002, 1010-11 (D.C. Cir. 2000)); see also
Swan v. Clinton, 100 F.3d 973, 976 (D.C. Cir. 1996) (explaining that redressability includes
consideration of “whether a federal court has the power to grant... relief’); Lozansky v. Obama,

29

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 30 of 42

AppfrB

841 F. Supp. 2d 124, 132 (D.D.C. 2012) (finding that plaintiffs’ lacked standing because the
court lacked authority to redress plaintiffs injury through requested relief for a writ of
mandamus).
Even assuming that Shao were to be successful in establishing an injury-in-fact that is
fairly traceable to the Supreme Court Defendants, Federal Judicial Defendants, Congressional
Defendants, and Judge Rushing, this Court does not have the power to issue the remedy Shao
seeks. The Court addresses in turn the claims against the Supreme Court Defendants, Federal
Judicial Defendants, Congressional Defendants, and Judge Rushing.
i. Supreme Court Defendants
Because Shao’s requested relief asks this Court to exercise powers over the Supreme
Court that it plainly does not have, the claims against the Supreme Court Defendants fail the
redressability requirement of standing and cannot go forward.
First, Shao requests injunctive relief over the eight named Supreme Court Justices,
including that they be ordered to disclose various potential conflicts of interests “on the Supreme
Court website[;]” that they be ordered to disclose any gifts, scholarships, honoraria, and favors
they may have received in connection with their relationship to the American Inn Defendants;
and that they be enjoined from reviewing her appeals. Am. Compl. f 350. Shao also requests
that all Supreme Court Justices be impeached. Id. ^ 348.
It is well established that a lower court does not have jurisdiction to compel the U.S.
Supreme Court or its staff to review a case—or to take any action at all. See, e.g., In re Marin,
956 F.2d 339, 340 (D.C Cir. 1992) (“[I]t seems axiomatic that a lower court may not order the
judges or officers of a higher court to take any action.” (quoting Panko v. Rodak, 606 F.2d 168,
171 n.6 (D.C. Cir. 1992))); Reddy, 520 F. Supp. 2d at 132 (“[T]he [lower court] plainly lacks

30

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 31 of 42 fyppO^

jurisdiction to compel official action by the U.S. Supreme Court justices or their staff.”).
Likewise, this Court also does not have the power to impeach a Supreme Court Justice. See
generally U.S. Const, art. I, § 2, cl. 5 (delegating the “sole Power of Impeachment” to the House
of Representatives). Because this Court lacks the power to issue the relief requested, both of
Shao’s requests for relief through injunction and impeachment will not be “likely [to] alleviate
the particularized injury alleged.” West, 845 F.3d at 1235 (quoting Fla. Audubon Soc’y, 94 F.3d
at 663-64). Shao’s requests for relief thus fail the redressability requirement of standing and her
claims against the Supreme Court Justices must be dismissed for lack of subject matter
jurisdiction.
Likewise, this Court does not have the power to impeach clerks of the Supreme Court, or
to compel the Supreme Court to take any action toward its employees. Shao requests that clerks
Bickell and Atkins be impeached for allegedly altering docket entries and conspiring to “disrupt
or obstruct the normal function of the government unit, the Clerk’s Office of the US Supreme
Court.” Am. Compl. f 348. This Court cannot give Shao the relief she seeks because it plainly
does not have the power of impeachment. See generally U.S. Const, art. I, § 2, cl. 5. And even if
this Court could declare impeachment, clerks of court are not appointed positions, and thus their
removal would be an employment decision rather than an issue of impeachment. As is well
established, the Supreme Court “has inherent supervisory authority over its Clerk.” Marin, 956
F.2d at 340. Accordingly, the Supreme Court has the sole right “to correct the irregularities of its
officer[s] and compel [them] to perform [their] duty,” id. (quoting Griffin v. Thompson, 43 U.S.
(2 How.) 244, 257 (1844)), and retains the sole power to remove Bickell or Atkins. See also
Reddy, 520 F. Supp. 2d at 132 (“[T]he [lower court] plainly lacks jurisdiction to compel official

31

Case l:18-cv

33-RC Document 154 Filed 01/1

Appo4T

Page 32 of 42

action by the U.S. Supreme Court justices or their staff.”). Shao’s claims against Bickell and
Atkins also fail the redressability requirement of standing and cannot move forward.
ii. Federal Judicial Defendants
Next, this Court also does not have the power to grant Shao’s requested relief against the
Federal Judicial Defendants. Shao requests that this Court reverse the decisions, and declare the
impeachment, of Judge Wallace, Am. Compl. ]j 363, and Judge Koh, id. If 359. She further
;

requests that this Court declare its own impeachment and impeach Francis. Id. f 426. As
discussed above, this Court does not have the power of impeachment. See generally U.S. Const.
art I, § 2, cl. 5. Thus, even if the Court declared the impeachment of Judge Wallace and Judge
Koh, that declaration would have no meaningful value and would not redress Shao’s alleged
injury. Likewise, this Court does not have the authority to impeach itself or its clerks, and
declaring the Court’s own impeachment would have no value. And finally, as to Shao’s request
that the Court invalidate Judge Wallace and Judge Koh’s decisions in her cases, it is also well
established that federal district courts do not have jurisdiction to reconsider decisions of other
federal courts. See, e.g., Atchison v. U.S. District Courts, 190 F. Supp. 3d 78, 88 (D.D.C. 2016);
Fleming v. United States, 847 F. Supp. 170, 172 (D.D.C. 1994). Because they fail the
redressability requirement of standing, Shao’s claims against Judge Wallace, Judge Koh, Judge
Contreras, and Jackie Francis cannot go forward.
iii. Congressional Defendants
Shao similarly lacks standing to bring a claim against the House Judiciary, the Senate
Judiciary, Senator Feinstein, and Representative Swalwell because her requested relief cannot be
redressed by this Court. Shao asks that this Court declare that the House Judiciary Committee
has a “duty to conduct a thorough investigation into crimes committed by [the] Supreme Court

32

Case l:18-cv-

13-RC Document 154 Filed 01/1'

Page 33 of 42

Justices and Clerks and federal Court staffs.” Am. Compl. If 348. Shao further requests that this
Court compel the House Judiciary Committee, the Senate Judiciary Committee, Senator
Feinstein, and Representative Swalwell to impeach Judge Wallace, id. Tf 362, and Judge Koh, see
id. f 359. As discussed above, this Court plainly does not have the power of impeachment. See
generally U.S. Const, art I, § 2, cl. 5. Likewise, because that power is explicitly reserved for
Congress, see id., this Court does not have the power to compel Congress to impeach a sitting
federal judge, see, e.g., Keener v. Congress, 467 F.2d 952, 953 (5th Cir. 1972) (per curiam)
(finding no standing in action for writ of mandamus compelling Congress to act). If granted, the
declaratory relief Shao requests would have no value, and thus would not redress her alleged
injuries. As such, she lacks standing to bring her claims against the Congressional Defendants
and the claims cannot go forward.
iv. Judge Rushing
Finally, Shao lacks standing to assert her non-monetary claims against Judge Rushing
because she asks for relief the Court is not able to grant. In the Amended Complaint, Shao asks
that Judge Rushing “be declared impeachment [sic] pursuant to California Penal Code §98 for
severe obstruction ofjustice in violation of California Penal Code §96.5 and §182.” Am. Compl.
f 376(4). California Penal Code §98 provides that “[e]very officer convicted of any crime
defined in this Chapter, in addition to the punishment prescribed, forfeits his office and is forever
disqualified from holding any office in [California].” Cal. Penal Code § 98. The section does
not mention impeachment, so any declaration by this Court that a judicial officer is “impeached”
pursuant to § 98 would have no effect. And in any event, this Court does not have the power to
declare the guilt of an individual pursuant to a criminal statute, or to order the “impeachment”
(or removal) of a state official. The remaining claims against Judge Rushing cannot go forward.

33

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 34 of 42

/4pp0<£7

3. Patent Insubstantiability
Next, the Court dismisses Shao’s claims against the American Inn Defendants, the
Google Defendants, and Kevin Wamock as patently insubstantiable. Shao alleges that the
American Inn Defendants aided and abetted the overall scheme of parental deprival by providing
a platform for the various parties involved to communicate, including for attorneys to engage in
ex parte communications with, and in the corruption of, state and federal judges. See Am.
Compl. lf]f 370, 381-83. Shao further alleges that the Google Defendants conspired with Chief
Justice Roberts and the McManis Defendants to hack into her computer, conduct various forms
of surveillance on her, and prevent her from accessing online services provided by the Google
Defendants. See Am. Compl. Iff 305-14. Finally, Shao alleges that Kevin Wamock hacked into
her computer to delete files, as part of a conspiracy orchestrated by the McManis Defendants to
sabotage Shao’s pending legal proceedings. See Am. Compl. f 68. Because Shao’s claims
against these defendants are all “essentially fictitious,” Best v. Kelly, 39 F.3d 328, 330 (D.C. Cir.
i

1994) (quoting Hagans v. Lavine, 415 U.S. 528, 537 (1974)), the claims against the American
Inn Defendants, the Google Defendants, and Warnock are dismissed as patently insubstantial.
After briefly reviewing the standard for patent insubstantiability, the Court reviews Shao’s
claims against each set of defendants in turn.
a. Legal Standard
In limited cases, a court may dismiss a case sua sponte for lack of subject matter
jurisdiction if a complaint is ‘“patently insubstantial’” and thus “presents] no federal question
suitable for decision.” Vasaturo v. Peterka, 203 F. Supp. 3d 42, 44 (D.D.C. 2016) (quoting Best,
39 F.3d at 330). Declining to hear a claim because it is patently insubstantial is “reserved for
complaints resting on truly fanciful factual allegations,” while “legally deficient complaints” are

)

34

Case l:18-cv-

33-RC Document 154 Filed 01/1

Page 35 of 42

still reserved for 12(b)(6) dismissals. Id. (quoting Best, 39 F.3d at 331 n.5). Thus, to meet this
standard, “claims [must] be flimsier than ‘doubtful or questionable’—they must be ‘essentially
fictitious.’” Id. (quoting Best, 39 F. 3d at 330). And “essentially fictitious” claims include
“bizarre conspiracy theories, any fantastic government manipulations of [the] will or mind, [and]
any sort of supernatural intervention.” Id. (alteration in original) (quoting Best, 39 F.3d 328 at
330).
b. American Inn Defendants
Because Shao’s claims against the American Inns of Court, William A. Ingram American
Inn of Court, and San Francisco Bay Area American Inn of Court are “essentially fictitious,”
they cannot move forward. Shao asserts that the “giant gang, American Inns of Court”
orchestrated “a series of multiple conspiracies ... ofjudicial corruption with the common goal of
permanent parental deprival and harassment since August 4, 2010.” Am. Compl. ]f 5. She
further alleges that the American Inns of Court, “started out as a social and professional
networking arena for many attorneys, judges, and justices, but has become an inappropriate
secret legal society in which financial interests and favors are traded behind the scenes, and
outcomes of cases are decided before trial or appeal.” Id. |f 7. As the Court understands Shao’s
accusations, she appears to believe both 1) that the American Inn Defendants facilitated a series
of ex parte communications between the attorneys, clerks, and judges involved in Shao’s custody
litigation to predetermine the litigation’s outcome or otherwise harass Shao during the pendency
of the proceedings, and 2) that the American Inns of Court more generally is a dangerous
organization providing a secret forum for illegal ex parte communications and judicial
corruption.

35

Case l:18-cv-

3-RC Document 154 Filed 01/17

Page 36 of 42

Appof?

On Shao’s alleged facts, her claims against the American Inn Defendants involve exactly
the type of “bizarre conspiracy theorfy]” that, even when viewed favorably toward Shao, is
“clearly fanciful.” Best, 39 F.3d at 330-31. Similar cases in this circuit have been dismissed as
“clearly fanciful” under the doctrine of patent insubstantiality, including claims that government
officials illegally wiretapped and facilitated “round-the-clock surveillance” of the plaintiff after
he made comments to a TSA agent about security concerns, Tooley v. Napolitano, 586 F.3d
1006, 1008 (D.C. Cir. 2009), that the plaintiff was subjected to a campaign of harassment and
surveillance by federal and state government officials originating from a string of unconnected
events, Curran v. Holder, 626 F. Supp. 2d 30, 31 (D.D.C. 2009), and that a United States Senator
hacked the plaintiffs phones and computers, tracked him by helicopter, and intentionally caused
a city-wide power outage, Lewis v. Bayh, 577 F. Supp. 2d 47, 54-55 (D.D.C. 2008). The
common theme in each of these claims was that they were not merely factually unsubstantiated,
but factually fanciful to the point that they were “essentially fictitious,” Best, 39 F. 3d at 330.
Shao’s allegations against American Inn are similarly “conclusory and unsupported by
factual details.” Curran, 626 F. Supp. 2d at 34. Shao asserts, with no plausible foundation, that
the American Inns of Court engaged in a conspiracy against her in order to predetermine the
outcome of her custody litigation through a series of secret exchanges. See Am. Compl. |f 7. She
asserts that she lost prior cases because “the judges deciding her matters are all active members
of the club the American Inns of Court, which provides opportunities for ex parte
communications, favors, and gifts to flow between attorneys and judges.” Id. [f 10. Shao further
alleges that American Inns of Court and the Supreme Court Justices have significant financial
ties to one another, through a variety of donations, scholarships, business transactions, and gifts
that lead to judicial corruption. See, e.g., id. *[ff 23-24, 328-47. She believes that the Supreme

36

Case l:18-cv-'

3-RC Document 154 Filed 01/17

Page 37 of 42

Appozv

Court Justices, in refusing to recuse themselves and denying her various appeals, “further ...
made unlawful agreements to cover each other’s financial interests with the American Inns of
Court,” id. U 329, and more generally that the treatment of her cases by the Supreme Court
provides “[a] clear example of such money-oriented corruption of the Roberts Court,” id. f 345.
Courts in this circuit have held that claims of a widespread conspiracy cannot go forward
when a plaintiff “offers only a ‘laundry list of wrongful acts and conclusory allegations to
support her theory of conspiracy.”’ Curran, 626 F. Supp.2d at 34 (quoting Richards v. Duke
Univ., 480 F. Supp. 2d 222, 233 (D.D.C. 2007). Shao provides no concrete factual support for
her allegations of a wide-ranging, national conspiracy that supposedly involves lawyers and
judges at all levels of the state and federal judiciary branches and is coordinated by the American
Inn Defendants as a dangerous and corrupt intermediary. And the “laundry list of wrongful acts”
she alleges, id. (quoting Richards, 480 F. Supp. 2d at 233), can simply be explained by a much
more innocuous turn of events: the successive courts to have reviewed her claims disagreed with
her arguments and found against her. Because Shao’s conspiracy allegations are patently
insubstantial, the Court dismisses all claims against the American Inn Defendants for lack of
subject matter jurisdiction.
c. The Google Defendants
Likewise, the Court finds that Shao’s allegations against the Google Defendants are
“essentially fictitious,” and thus it dismisses the claims against them for lack of subject matter
jurisdiction under the doctrine of patent insubstantiality. Shao claims that the Google
Defendants conspired with the McManis Defendants and Chief Justice Roberts to harass her,
including by hacking her computer in violation of the Wiretap Act. See Am. Compl.

305,

393. She asserts that Google “suspended services of Plaintiff s gmails without any preceding

37

Case l:18-cv-

53-RC Document 154 Filed 01/1'

Page 38 of 42

/typori

notice because of Plaintiff s publication of the videos on the YouTube about the US Supreme
Court Justices’ financial interest with the Americans Inns of Court.” Id. If 67. Shao further
alleges that emails she sent to various parties in her pending custody litigation were removed due
to “email hackings by Google, Inc., and YouTube, Inc.,” id. If 247, and that comments on her
personal YouTube page “were all systematically deleted by YouTube, Inc. within a day of
SHAO having posted them,” id. f 306. Shao claims that all of her email addresses were
subsequently suspended and that the Google Defendants escalated to conducting electronic
surveillance on her and having vehicles follow her. See id. fflf 307-13.
Shao asserts that Google and YouTube’s decision to conspire with Chief Justice Roberts
may have been motivated by a “special favor” the Chief Justice purportedly gave Google in an
unrelated case. Id. 1f 314; see also Docket, Google, LLC v. Unwired Planet, LLC, No. 17-357.
Shao reads several routine steps in the certiorari process—including an extension of time
Google sought to file its cert petition and the eventual placement of the petition on a conference
list, which she characterizes as an improper “special conference”—as evidencing that “special
favor.” Am. Compl. ff 314. She concludes that the special favor, an illustration of the “moneyoriented corruption of the Roberts Court,” Am. Compl. at f 345, could “explain why YouTube
and Google might, without any notice, have been suspending all of SHAO’s emails and
YouTube services, and deleting all comments to SHAO’s YouTube postings,” id. | 314.
As with Shao’s claims against the American Inn Defendants, her allegations against
Google and YouTube present “bizarre conspiracies” filled with “essentially fictitious facts.”
Best, 39 F.3d 328 at 330. Much like the plaintiffs in Tooley and Curran, who alleged that the
government had coordinated surveillance campaigns against them following perceived slights,
see Tooley, 586 F.3d 1007-08, Curran, 626 F. Supp. 2d at 34, Shao alleges that the Google

38

Case l:18-cv-

13-RC Document 154 Filed 01/1

Page 39 of 42

AppOf Z

Defendants engaged in hacking, wiretapping, and physical surveillance as part of a conspiracy
with the Chief Justice, presumably to hinder her exposition of the corruption she allegedly
uncovered at the Supreme Court, see id.

305-14. These allegations of a “campaign of

surveillance and harassment deriving from uncertain origins ... constitute the sort of patently
insubstantial claims” dismissed by courts in this Circuit. Tooley, 586 F.3d at 1010 (listing
cases). The Court therefore dismisses the claims against the Google Defendants for lack of
subject-matter jurisdiction.11
d. Kevin Warnock
Finally, Shao’s claim against Warnock involve the same type of “bizarre conspiracy]” she
alleges the Google Defendants are a part of, and because her allegations are “essentially
fictitious,” the Court dismisses the claim for lack of subject-matter jurisdiction as patently
insubstantial. Best, 39 F.3d 328 at 330. Shao alleges that on April 5, 2018, she “discovered that
about 3,000 files on three laptops of hers had been severely hacked by three specific
individuals.” Am. Compl. H 315. According to Shao, she noticed the hack because “the authors’
names for [files relating to one of Shao’s cases] were altered from SHAO’s name[]” to the name
of other individuals on her computer. Id. Shao identifies Warnock as one such individual, and

11 The Google Defendants separately move to dismiss Shao’s claims for failure to state a
claim because Shao does not make any factual allegations about the interception of a wire, oral,
or electronic communication, when the interception of a communication is central to any Wiretap
Act claim. See Google Defs.’ Mot. Dismiss at 6, ECF No. 84 (citing 18 U.S.C. §§ 2510, 2511,
2520). The Court agrees. Shao bases her Wiretap Act claim solely on the Google Defendants’
alleged deletion of posts and content linked to her Youtube and Google Accounts, suspension of
those accounts, and interruption of other services provided by the Google Defendants. See Am.
Compl. 393-400. While summarily concluding that the Google Defendants conspired to
intercept electronic communications, Shao thus fails to provide any facts to support that
conclusion. Her amended complaint does not “contain sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
39

Case l:18-cv-

13-RC Document 154 Filed 01/1"

Page 40 of 42

Appox

alleges that following her discovery, Wamock “appeared to be angered ... and started purging
files, disabled keyboard, and would like [sic] to force SHAO to use wireless internet to allow
them to continue monitoring SHAO’s activities.” Id. f 318. Shao alleges that Wamock caused
the deletion of litigation files, id\ 402, the destruction of her law firm website,
shaolawgroup.com, id. ^ 406, forced Shao to reformat her computer over ten times, id. f 407, and
somehow “damaged internet units” three times, id. Wamock supposedly hacked Shao’s
computer in order to assist the “co-conspirators in this case,” including the McManis Defendants,
Sussman, Judge Zayner, and possibly the Google Defendants. See id.

308, 404. The

information purportedly gathered by Wamock was allegedly shared with this Court, in order to
further the conspiracy to deny Shao access to justice. See id. H 404.
As with the American Inn and Google Defendants, Shao’s claims against Wamock
involve a “bizarre conspiracy]” with no factual support. Best, 39 F.3d 328 at 330. Shao alleges
that some file names on her computer were changed and that other files or information was lost
over the past year, and concludes from these facts that she was the victim of a prolonged hacking
campaign, coordinated by members of the widespread, government-linked conspiracy against
her. As with the Google Defendants, she infers from otherwise innocuous incidents that
Wamock—who Shao does not know, aside from his name allegedly appearing on files on her
computer—coordinated with defendants more directly involved in the overall conspiracy to hack
into her accounts and interfere with her legal cases. Shao does nothing but provide a “laundry
list of wrongful acts and conclusory allegations to support her theory of conspiracy,” Curran,
626 F. Supp.2d at 34 (quoting Richard, 480 F. Supp. 2d at 233), and the Court accordingly
dismisses the claim against Wamock for lack of subject matter jurisdiction under the doctrine of
patent insubstantiality.

40

Case l:18-cv

33-RC Document 154 Filed 01/1

Page 41 of 42

App05^

4. Aiding and Abetting Liability
Finally, the Court dismisses Shao’s last remaining claims, against Orlando, Fadem,
Mitchell, Sussman, and Wang, because they do not state a valid federal cause of action. Shao
only brings one claim against each of these five defendants, aiding and abetting, and all five are
sued specifically for “aid[ing] and abett[ing] the common scheme of permanent parental
deprival.” Am. Compl. ^ 386, 387, 389, 390, 391. Because this suit is expressly premised on
federal question jurisdiction, id. f 2, and all other claims have been dismissed, Shao must point
to a federal source of law her aiding and abetting claim can be brought under. “Congress has not
enacted a general civil aiding and abetting statute.” Owens, v. BNP Paribas, S.A., 897 F.3d 266,
277 (D.C. Cir. 2018) (quoting Central Bank ofDenver, N.A. v. First Interstate Bank ofDenver,
N.A., 511 U.S. 164, 182 (1994)). And Shao does not point to any federal source of law her
aiding and abetting claim arises under. Absent a source for federal question jurisdiction, Shao’s
aiding and abetting claims must be dismissed for lack of subject matter jurisdiction.12

12 Shao notes that Wang “aided and abetted the court crimes that violated 42 U.S.C. 1983
as stated in Count VI.” Am. Compl. ^ 387. And while the complaint does not specify which
violations Orlando, Fadem, Mitchell, and Sussman aided and abetted, all four are also alleged to
have been involved in the effort to subvert Shao’s state custody case. See id. 386, 389-91.
To the extent Shao’s aiding and abetting claims against Wang—or Orlando, Fadem, Mitchell,
and Sussman—can be characterized as § 1983 claims, the Court dismisses them for failure to
state a claim. In Central Bank, the Supreme Court found that § 10(b) of the Securities Act did
not provide for aiding and abetting liability because the text of the statute clearly did not
contemplate such liability. 511 U.S. at 176-77. “The key takeaway from Central Bank is that
when Congress creates a private cause of action, aiding and abetting liability is not included in
that cause of action unless Congress speaks to it explicitly.” Owens v. BNP Paribas, S.A., 897
F.3d 266,277 (D.C. Cir. 2018). Courts to have addressed the issue have found that because
Congress did not explicitly provide for aiding and abetting liability in the text of § 1983, § 1983
does not support aiding and abetting liability. See W. Daniels Land Ass’n v. Wasatch Cnty., No.
2:10-cv-558, 2011 WL 1584822, at *2 (D. Utah Apr. 26, 2011) (noting that, pursuant to Central
Bank, there is no aiding and abetting liability under § 1983); Theriot v. Woods, No. 2:09-cv-199,
2010 WL 623684, at *7 (W.D. Mich. Feb. 18, 2010) (same); see also Khulumani v. Barclay Nat.
Bank Ltd., 504 F.3d 254, 317 (2d Cir. 2007) (Korman, J., concurring in part and dissenting in
part) (“Because Congress has not enacted a comparable civil aiding-and-abetting statute, a
41

Case l:18-cv-

3-RC Document 154 Filed 01/17

Page 42 of 42

IV. CONCLUSION
For the foregoing reasons, Shao’s renewed motion to disqualify this Court and to change
venue (ECF No. 142) and motion to strike the McManis Defendants’ motion to dismiss (ECF
No. 81) are DENIED. The motions to dismiss by the California Judicial Defendants (ECF No.
31), Janet Everson (ECF No. 45), the American Inn Defendants (ECF No. 58), the McManis
Defendants (ECF No. 65), Carole Tait-Stames (ECF No. 75-1), Esther Chung (ECF No. 80), the
Google Defendants (ECF No. 84), and the Santa Clara Defendants (ECF No. 117) are
GRANTED. All remaining claims against all other defendants are DENIED for lack of subject
matter jurisdiction. And because this case has been dismissed for lack of subject matter
jurisdiction, the remainder of the pending motions are DENIED AS MOOT. An order
consistent with this Memorandum Opinion is separately and contemporaneously issued.
Dated: January 17, 2019

RUDOLPH CONTRERAS
United States District Judge

private party could not be subject to such liability in a civil action under 42 U.S.C. § 1983.”
(citing Central Bank, 511 U.S. at 181-82)).
42

Case l:18-c

233-RC Document 48 Filed 08/C

Page 1 of 13

4ppOS^
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
YI TAI SHAO,
Plaintiff,

Civil Action No.:

18-1233 (RC)

v.

Re Document No.:

19, 42

CHIEF JUSTICE JOHN G. ROBERTS, et al.,
Defendants.
MEMORANDUM OPINION
Denying Plaintiff’s Motion to Disqualify Judge and to Transfer Venue; Denying
Plaintiff’s Motion to Stay Proceedings; Denying Plaintiff’s Motion to Vacate
Grant of Leave to Appear Pro Hac Vice
I. INTRODUCTION
Plaintiff Yi Tai Shao filed this action against more than one hundred defendants,
including eight Supreme Court Justices; the U.S House Judiciary Committee; the U.S. Senate
Judiciary Committee; YouTube, Inc.; Google, Inc.; and now, this judge. Ms. Shao seeks
monetary and injunctive relief for an alleged conspiracy between all Defendants arising out of a
previous child custody judgment against her. Now before the Court is Ms. Shao’s motion to
disqualify Judge Contreras, presiding, and to transfer venue, as well as her motion to vacate the
Court’s grant of leave to appear pro hac vice and her motion to stay these proceedings pending
the resolution of her motion to disqualify. For the reasons set forth below, the Court denies the
motion to disqualify and transfer, denies the motion to stay, and denies the motion to vacate the
Court’s grant of leave to appear pro hac vice. i

i

Of course, Ms. Shao is free to voluntarily dismiss this case and refile it wherever she
believes it is properly venued.

Case l:18-c

’33-RC Document 48 Filed 08/0

Page 2 of 13

/%>«7

II. FACTUAL BACKGROUND
Ms. Shao’s complaint alleges a conspiracy between more than one hundred Defendants
who purportedly continue to deprive her of custody of her child. See generally Compl., ECF No.
1. After losing her child custody case in California state court, Ms. Shao sued her attorneys,
James McManis and Michael Reedy, alleging that they worked against her interests to protect the
judge who entered the final order against her. Id. f 6. Ms. Shao claims that her attempts to appeal
her cases to higher courts, including the United States Supreme Court, have been stymied due to
foul play among countless judges, her former attorneys, Google, YouTube, and various other
Defendants. See generally Compl. She further alleges that Mr. McManis and Mr. Reedy used
their relationships with the court to shield themselves from malpractice liability. Id.

6-7. Ms.

Shao advances her allegations of the conspiracy based on several Defendants’ membership in the
American Inns of Court, a social and professional legal organization. Id. According to Ms. Shao,
the Defendants each have a financial interest in the American Inns of Court. Id. Ms. Shao further
alleges that Chief Justice John Roberts, along with seven other Supreme Court Justices,
conspired to obstruct justice when they denied several of her writs of certiorari. Id. f 12. She has
also sued dozens of California state court judges and state judicial employees for violations of
her constitutional rights. Id. at 3.
Ms. Shao has now added the judge presiding over this case as a defendant in her First
Amended Complaint and seeks to disqualify him. See Pl.’s Mot. Disqualify, ECF No. 19; Am.
Compl., ECF No. 16.2 Ms. Shao alleges that several clerical “irregularities” on the case’s docket
create an appearance of partiality in favor of Chief Justice Roberts. See generally Pl.’s Mot. to

2 Ms. Shao’s claims against Judge Contreras in her amended complaint essentially mirror
her argument for disqualification.
2

Case l:18-c\

33-RC Document 48 Filed 08/Of

Page 3 of 13

kppOSff

Disqualify. In particular, Ms. Shao alleges that this judge and his case administrator Jackie
Francis, at the direction of Chief Justice Roberts, engaged in purposeful and willful attempts to
conceal and delay the filing of her complaint, engaged in false docketing, deterred the
proceedings, obstructed justice, delayed the issuance of summonses, and added false dates to
several issued summonses. Id. at 3-6. Ms. Shao also alleges that this judge failed to disclose his
relationship with Chief Justice Roberts. Id. at 6. According to Ms. Shao, Chief Justice Roberts’s
appointment of Judge Contreras to the Foreign Intelligence Surveillance Court (“FISC”) creates
an appearance of partiality. Id. at 6-9. Further, Ms. Shao alleges that this judge used his position
on the FISC to hack into her computer while she drafted her opposition to the California Judicial
Defendants’ motions for leave to appear pro hac vice. Pl.’s 2d Supp. Mot. Disqualify at 6, ECF
No. 32.3 She also alleges that this judge “rushed night time orders” for the California Judicial
Defendants because the Court granted their motions for leave to appear pro hac vice at 7:13 p.m.
in the evening. Id. at 6. Ms. Shao urges the Court to disqualify the entire District of Columbia
Circuit, the Third Circuit, and the U.S. District Courts in Delaware, Pennsylvania, Virginia, and
New Jersey, and to transfer her underlying case to a federal court in New York. See Pl.’s Mot.
Disqualify at 16-18. Finally, Ms. Shao moves the Court to stay these proceedings pending a
decision on her motion to disqualify and to vacate the granting of the two motions for leave to
appear pro hac vice in this case. See Mot. Stay, ECF No. 42. For the reasons explained below,
the Court denies Ms. Shao’s motions to disqualify and transfer venue and denies her motion to
• stay these proceedings. The Court further denies her motion to reconsider its grant of leave to
appear pro hac vice in this case.

3

Ms. Shao withdrew her second supplement to her motion to disqualify Judge Contreras
on July 31, 2018. See July 31, 2018 Docket Entry.
3

Case l:18-c

233-RC Document 48 Filed 08/0

Page 4 of 13

Appt>?f

III. ANALYSIS
A. Motion to Disqualify
Ms. Shao moves for this Court’s disqualification on grounds of partiality, 28 U.S.C. §
455(a); personal bias or prejudice, id. § 455(b)(1); and because this judge and his civil case
'\

administrator are now defendants in this matter, id. § 455(b)(5)(i).4 The Court addresses each
basis for Ms. Shao’s request in turn and finds that Ms. Shao has failed to show any objective
appearance of partiality, actual bias or prejudice, or that this judge has personal knowledge of
disputed evidentiary facts. The Court also finds that Ms. Shao’s amendment to add this judge as
a party provides no basis for recusal.
A judge is required to “disqualify himself in any proceeding in which his impartiality
might reasonably be questioned.” 28 U.S.C. § 455(a). The Court’s analysis under § 455(a)
requires it to objectively analyze whether a “reasonable and informed observer would question
the judge’s impartiality.” United States v. Microsoft Corp., 253 F.3d 34, 114 (D.C. Cir. 2001).
“The very purpose of § 455(a) is to promote [public] confidence in the judiciary by avoiding
even the appearance of impropriety whenever possible.” Id. (quoting Liljeberg v. Health Servs.
Acquisition Corp., 486 U.S. 847, 865 (1988)). Thus, “the mere appearance of bias is sufficient to
mandate recusal—whether there is actual bias is irrelevant.” Philip Morris USA, Inc. v. United
States FDA, 156 F. Supp. 3d 36, 49 (D.D.C. 2016).
When deciding whether to recuse himself, this judge must “take the perspective of a fully
informed third-party observer who ‘understand^] all the relevant facts’ and has ‘examined the
record and the law.’” Id. (quoting United States v. Cordova, 806 F.3d 1085, 1092 (D.C. Cir.

4 Ms. Shao does not specifically invoke § 455(b)(5)(i), but she does argue that this judge
must recuse himself because she added him as a defendant to this action. Pl.’s Mot. to Disqualify
at 16.
4

Case l:18-c

233-RC Document 48 Filed 08/C

Page 5 of 13

AppO&0

2015)). “[Ijmportantly ‘[a] reasonable observer must assume that judges are ordinarily capable of
setting aside their own interests and adhering to their sworn duties to faithfully and impartially
discharge and perform all the duties incumbent upon them.’” Id. (quoting Armenian Assembly of
America, Inc. v. Cafesjian, 783 F. Supp. 2d 78, 91 (D.D.C. 2011)). Accordingly, “a judge should
be disqualified only if it appears that he or she harbors an aversion, hostility or disposition of a
kind that a fair-minded person could not set aside when judging the dispute.” Liteky v. United
States, 510 U.S. 540, 558 (1994) (Kennedy, J., concurring).
Section 455(b)(1) provides that a judge must recuse himself “[wjhere he has a personal
bias or prejudice concerning a party, or personal knowledge of disputed evidentiary facts
concerning the proceeding.” 28 U.S.C.S. § 455(b)(1). However, unlike the objective standard
under § 455(a), which analyzes whether there exists a mere appearance of partiality, recusal
under § 455(b)(1) requires the movant to “demonstrate actual bias or prejudice based upon an
extrajudicial source.” Cobell v. Norton, 237 F. Supp. 2d 71, 98 (D.D.C. 2003) (emphasis added).
The movant must provide “evidence of the judge’s extrajudicial conduct or statements that are
plainly inconsistent with his responsibilities as an impartial decisionmaker.” Cobell v. Norton,
310 F. Supp. 2d 102, 120-21 (D.D.C. 2004). “A judge’s comments on a case are deemed to be
extrajudicial only if they have some basis other than what the judge learned from his
participation in the case.” United States v. Barry, 961 F.2d 260, 263 (D.C. Cir. 1992) (internal
quotations and citation omitted). The movant must also prove that this bias or prejudice
“result[ed] in an opinion on the merits on some basis other than what the judge learned from his
participation in the case.” United States v. Grinnell Corp., 384 U.S. 563, 583 (1966).
Moreover, § 455(b)(5)(i) provides for a judge’s disqualification if he is a party to the
proceeding. 28 U.S.C. § 455(b)(5)(i). However, § 455(b)(5)(i) does not require automatic

5

Case l:18-c

233-RC Document 48 Filed 08/C

' Page 6 of 13

/Q-pp 0 £ i

disqualification. Rodriguez v. Nat’l Ctr. for Missing & Exploited Children, No. 03-120, 2005
U.S. Dist. LEXIS 5658, at *52 (D.D.C. Mar. 31, 2005). A judge may decline to recuse himself to
“prevent plaintiffs from ‘judge-shopping’” unless there is a legitimate basis for suing him. Id. at
*52-53 (citation omitted). “For a judge to be disqualified simply because the plaintiff has sued
the judge would be to allow the plaintiff to manipulate the identity of the decision-maker.” Id.
(quoting 32 Am. Jur. 2d Federal Courts § 149).
Ms. Shao urges the Court’s recusal based on an alleged conspiracy between countless
Defendants in this matter including this judge and the Chief Justice of the United States. Ms.
Shao advances the following allegations in support of her motion to disqualify this Court, the
D.C. Circuit altogether, and multiple other circuits and districts courts:
(1) This Court engaged in false docketing, filing delays, deterrence of proceedings,
obstruction of justice, and concealment of her initial complaint;
(2) The omission of Chief Justice Roberts’s name in the short form of the case name
shows that these actions were purposeful and willful, and that this judge has a
personal bias;
(3) This judge’s civil filing clerk withheld the issuance of summonses for twenty-three
days and entered false dates on certain summonses;
(4) The District Court Clerk’s Office did not deny the allegation that this Court directed
these “irregularities”;
(5) Chief Justice Roberts’s appointment of this judge to the FISC creates an appearance
of partiality;
(6) This judge’s failure to disclose his relationship, based on his FISC appointment, with
Chief Justice Roberts further creates an appearance of partiality;

6

Case l:18-c

233-RC Document 48 Filed 08/0

Page 7 of 13

(7) Chief Justice Roberts has a personal relationship with Mr. McManis and directed this
judge to delay the issuance of Mr. McManis’s summons;
(8) This judge returned to the courthouse after-hours to expedite the disposition of
several Defendants’ motions to appear pro hac vice;
(9) This judge used his position on the FISC to hack Ms. Shao’s computer and leam that
she was preparing to file her oppositions to the pro hac vice motions immediately
before he granted them;
(10) This judge should also disqualify the entire D.C. Circuit, the Third Circuit, and the
U.S. District Courts in Delaware, Pennsylvania, Virginia, and New Jersey because he
has connections in each of those jurisdictions;
(11) This judge should transfer the underlying case to New York because it is the only
jurisdiction where Ms. Shao will have a fair trial.
See Pl.’s Mot. to Disqualify at 3-9, 16; Pl.’s 2d Supp. Mot. to Disqualify at 4-8.
None of Ms. Shao’s allegations mandate recusal. It is well-settled that a judge’s
appointment to the bench does not create an appearance of partiality under § 455(a). See, e.g.,
Klayman v. Judicial Watch, Inc., 628 F. Supp. 2d 98,111 (D.D.C. 2009) (“[Cjourts have held
that recusal [under § 455(a)] is not warranted even when the President responsible for
nominating the judge is actually a party to the litigation.” (emphasis in original)); Reddy v.
O’Connor, 520 F. Supp. 2d 124, 128 (D.D.C. 2007) (concluding that “no reasonable and
informed observer would question the impartiality of the [judge] based on the Chief Justice’s
appointment of the [judge] to the FISC.”). Accordingly, this judge declines to recuse himself
based on Ms. Shao’s allegation that Chief Justice Robert’s appointment of him to the FISC
creates an appearance of partiality.

7

Case 1:18-C’

133-RC Document 48 Filed 08/0'’

Page 8 of 13

Afpo63>

Furthermore, this Circuit and countless others have established that a judge is not
required to recuse himself where the movant alleges a judicial conspiracy but offers “no facts
that would fairly convince a sane and reasonable mind to question this Court’s impartiality.”
Walsh v. Comey, 110 F. Supp. 3d 73, 77 (D.D.C. 2015); see, e.g., United States v. Bray, 546 F.2d
851, 857 (10th Cir. 1976) (holding that plaintiffs accusations of judicial bribery, conspiracy, and
obstruction of justice were insufficient to warrant recusal). Ms. Shao provides only bald
allegations of a conspiracy between this judge and Chief Justice Roberts. She alleges that this
Court has engaged in dilatory tactics at the command of Chief Justice Roberts but provides no
factual matter to form a basis for these allegations. See Karim-Panahi v. U. S. Cong., 105 F.
App’x 270, 275 (D.C. Cir. 2004) (holding that bald allegations of bias and prejudice are
insufficient to mandate judicial disqualification under § 455(a)). The Court finds that Ms. Shao’s
accusations that Chief Justice Roberts directed this judge to “purge” evidence from the court
docket, and that this judge “manipulated” the Clerk’s Office to delay these proceedings would
not cause a reasonable person to question this judge’s impartiality. See Pl.’s Mot. Disqualify at
1-4, 15-16. Further, the Court finds that Ms. Shao’s assertion that the Clerk’s Office did not
deny Ms. Shao’s allegations does not provide evidence of an underlying conspiracy.
Ms. Shao’s request also fails under § 455(b)(1) because she provides no evidence of
actual bias or prejudice, nor does she provide any evidence that shows that this judge has any
personal knowledge of disputed evidentiary facts. As explained above, Ms. Shao bases her
allegations on a purely speculative conspiracy. See United States v. Microsoft Corp., 253 F.3d at
108 (noting that a motion to disqualify a judge “supported only by rumor, speculation, or
innuendo ... is also a means to tarnish the reputation of a federal judge”). She provides no
evidence that shows that this Court obtained facts from any extrajudicial source. Ms. Shao’s

8

Case l:18-c

’33-RC Document 48 Filed 08/0'

Page 9 of 13

Arppe>£f

argument is riddled with conspiracy theories based on the “irregular” timing of the issuance of
her summonses and apparent clerical discrepancies between the court documents and her
communications with the Clerk of Court. These allegations do not show actual personal bias or
prejudice, nor do they show that this judge has any personal knowledge of disputed facts
underlying Ms. Shao’s original action.
Furthermore, Ms. Shao’s assertion that this judge must recuse himself under §
455(b)(5)(i) because she named him and a civil case administrator as defendants in her amended
complaint is misguided. This judge declines to recuse himself because Ms. Shao’s amendment is
very clearly an attempt at judge-shopping. Ms. Shao’s amended complaint mirrors her original
complaint in substance but adds this judge as a defendant and asserts similar claims against him
as in her motion to disqualify. See Rodriguez v. Nat’l Ctr.for Missing & Exploited Children,
2005 U.S. Dist. LEXIS 5658, at *54-55 (denying plaintiffs’ motion to disqualify under §
455(b)(5)(i) because their amended complaint, which added the judge and the United States
District Court for the District of Columbia, among others, as defendants and mirrored the
original complaint in substance, was “merely [a] transparent attempt[] to judge-shop and forumshop.”); compare Compl., ECF No. 1 with Am. Compl., ECF No. 16. Ms. Shao attempts to hide
her efforts to forum-shop and judge-shop behind a veil of claims against this judge which are
themselves based on conclusory allegations of a conspiracy between this Court and Chief Justice
Roberts. While courts in the District of Columbia have rarely addressed this specific issue, other
circuits have made clear that disqualification is patently unwarranted in these circumstances. See,
e.g, Gabor v. Seligmann, 222 F. App’x.577, 578 (9th Cir. 2007) (affirming a district court
judge’s decision to deny recusal because the main thrust of plaintiffs’ amendment to name the
judge as a defendant was to redress their dissatisfaction with his rulings); Davis v. Kvalheim, 261

9

Case l:18-cv

33-RC Document 48 Filed 08/0?

Page 10 of 13

Appoir

F. App’x 231, 233-34 (11th Cir. 2008) (upholding a district court judge’s decision to deny
plaintiffs request for disqualification because the plaintiff frivolously accused the judge of
conspiring to violate his rights and used “the court to ‘intimidate and heckle those he imagine[d]
ha[d] done him wrong, rather than as a forum for the redress of legitimate grievances.’”);
Bruzzone v. Intel Corp., No. 16-80233, 2016 U.S. Dist. LEXIS 170926, at *3-7 (N.D. Cal. Dec.
9, 2016) (declining recusal where plaintiff alleged that the judge and countless federal and state
court judges engaged in a fraudulent scheme against him).
Ms. Shao also requests that this Court disqualify the D.C. Circuit, the Third Circuit, and
the U.S. District Courts in Delaware, Pennsylvania, Virginia, and New Jersey because Judge
Contreras has professional and personal ties to those jurisdictions. Ms. Shao relies on United
States v. Jordan, 49 F.3d 152 (5th Cir. 1995), to support her assertion that this Court must
disqualify the entire D.C. Circuit. Id. at 160 n.18. However, she disregards the language in the
precise footnote she quotes which explicitly rejects the assertion that “disqualification of one
judge disqualifies all the judges of that district.” Id. Ms. Shao’s decision to disregard that
language in the very first sentence of the footnote further demonstrates that her motion to
disqualify is only an attempt to choose the decisionmaker.
For the foregoing reasons, this Court holds that Ms. Shao’s conspiratorial allegations are
insufficient to warrant recusal or to transfer her case to New York. Her request is an attempt to
judge-shop and a vehicle to express her dissatisfaction with the timeliness of this action. Ms.
Shao therefore fails to meet the requisite standard for judicial disqualification and the Court
denies her motion to disqualify Judge Contreras and transfer venue.

10

Case l:18-c\

33-RC Document 48 Filed 08/01

Page 11 of 13

Appo&&

B. Motion to Stay and Vacate Grants of Leave to Appear Pro Hac Vice
Ms. Shao has also moved to stay these proceedings pending the resolution of her motion
to disqualify Judge Contreras and to vacate the Court’s grant of leave for two of the California
Judicial Defendants’ attorneys to appear pro hac vice in this case. See Mot. Stay, ECF No. 42
(invoking 28 U.S.C. § 144). However, because Ms. Shao’s motion pursuant to § 144 was
procedurally defective, her motion is denied. Additionally, because Ms. Shao has failed to
demonstrate that the Court’s orders granting the California Judicial Defendants’ attorneys leave
to appear pro hac vice in this case was erroneously granted, her motion to vacate those orders is
also denied.
Section 144 provides that “[w]henever a party to any proceeding in a district court makes
and files a timely and sufficient affidavit that the judge before whom the matter is pending has a
personal bias or prejudice either against him or in favor of any adverse party, such judge shall
proceed no further therein, but another judge shall be assigned to hear such proceeding.” 28
U.S.C. § 144. “Though the language of Section 144 appears to indicate otherwise, submitting an
affidavit to the Court under this provision does not yield automatic recusal of the judge on the
matter.” Williams v. New York City Housing Auth., 287 F. Supp. 2d 247, 248 (S.D.N.Y 2003)
(citing 13A Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure § 3551
(2003)). For example, if the motion or its accompanying affidavit are procedurally deficient, the
district court judge against whom the motion was filed may deny it him or herself. See, e.g., 733
Sataki v. Broadcasting Bd. of Govs., F. Supp. 2d 54 (D.D.C. 2010). The statute provides that a
“sufficient affidavit” “shall state the facts and the reasons for the belief that bias or prejudice
exists, and shall be filed not less than ten days before the beginning of the term at which the
proceeding is to be heard, or good cause shall be shown for failure to file it within such time.” 28

11

Case l:18-c\

'.33-RC Document 48 Filed 08/0f

Page 12 of 13

U.S.C. § 144. The statute further requires that such affidavit “shall be accompanied by a
certificate of counsel of record stating that it is made in good faith.” Id.
Ms. Shao’s motion to stay these proceedings pursuant to 28 U.S.C. § 144 does contain a
supporting affidavit in which Ms. Shao declares that “the foregoing statements are true to the
best of [her] knowledge and/or logical inference.” Mot. Stay at 24. However, the affidavit is not
“accompanied by a certificate of counsel of record stating that it is made in good faith.” 28
U.S.C. § 144. “The certification requirement is not simply a pro forma procedural obligation but
is key to the integrity of the recusal process.” Sataki, 12>2> F. Supp. 2d at 60. Because, when
evaluating a motion and affidavit pursuant to § 144, “the Court must accept as true all factual
allegations asserted in the affidavit, even if the Court knows such allegations to be untrue, the
certification requirement is essential to ‘guard against the removal of an unbiased judge through
the filing of a false affidavit.”’ Id. (quoting S.E.C. v. Loving Spirit Found. Inc., 392 F.3d 486
(D.C. Cir. 2004)). Accordingly, “failure to make this certification is grounds for denying the
motion.” United States v. Miller, 355 F. Supp. 2d 404, 406 (D.D.C. 2005).
Courts have found that a party’s pro se status does not excuse their failure to file an
attorney certification in support of their § 144 motion and affidavit. See Robinson v. Gregory,
929 F. Supp. 334, 337 (S.D. Ind. 1996) (“Although a pro se litigant ordinarily may take the same
action on his or her own behalf that an attorney could, that approach should not apply to the
requirements of Section 144.”); Williams, 287 F. Supp. 2d at 249 (“Williams’s affidavit, which is
submitted pro se and without a certificate of counsel of record, fails on this threshold matter.”);
Kersh v. Borden Chem., 689 F. Supp. 1457, 1460 (E.D. Mich. 1998) (“Moreover, the pro se
status of a Plaintiff, who seeks to disqualify a party or a judge, does not excuse his failure to file
the certificate of good faith.”). Therefore, although Ms. Shao is representing herself in this

12

Case l:18-cv

33-RC Document 48 Filed 08/0P

Page 13 of 13

A-ppo&$

matter, because Ms. Shao has failed to file such a certificate, her motion is denied. Additionally,
because Ms. Shao has provided no evidence of any actual conflict of interest regarding the
California Judicial Defendants’ attorneys in this case, nor has she demonstrated that their
motions for leave to appear pro hac vice were deficient under Local Civil Rule 83.2, see Mot.
Stay at 21-24, her motion to vacate the Court’s grant of leave to appear pro hac vice is denied.

IV. CONCLUSION
For the foregoing reasons, Plaintiffs motion to disqualify and transfer venue (ECF No.
19) is DENIED. Additionally, her motion to stay these proceedings (ECF No. 42) is DENIED,
and her motion to vacate the Court’s grant of leave to appear pro hac vice (ECF No. 42) is
DENIED. An order consistent with this Memorandum Opinion is separately and
contemporaneously issued.
Dated: August 8, 2018

RUDOLPH CONTRERAS
United States District Judge

13

Case l:18-c

233-RC Document 49 Filed 08/C

Page 1 of 2

/\pp0 6t
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
YI TAI SHAO,
Plaintiff,

Civil Action No.:

18-1233 (RC)

v.

Re Document No.:

38, 45

CHIEF JUSTICE JOHN G. ROBERTS, et al.,
Defendants.
ORDER
On July 31, 2018, BJ Fadem filed a motion to dismiss, see ECF No. 38; and on August 8,
2018, Janet Everson filed a motion to dismiss, see ECF No. 45. These motions could potentially
dispose of the case. Because Plaintiff is proceeding pro se, the Court hereby notifies her that
under the Federal Rules of Civil Procedure and the local rules of this court, the Court may grant
the requested relief and dismiss the case if Plaintiff fails to respond within the time provided.
In Fox v. Strickland, 837 F.2d 507 (D.C. Cir. 1988), the Court of Appeals held that a
district court must take pains to advise a pro se party of the consequences of failing to respond to
a dispositive motion. “That notice ... should include an explanation that the failure to respond ..
. may result in the district court granting the motion and dismissing the case.” Id. at 509. Under
Local Civil Rule 7(b), if any party fails to file a response to a motion within the prescribed time,
“the Court may treat the motion as conceded.” D.D.C. Civ. R. 7(b).
Therefore, the Court hereby notifies Plaintiff that if she fails to submit a memorandum
responding to Defendants’ motions, the Court may treat the motions as conceded, grant the
motions, and dismiss her case. If Plaintiff complies with her obligations under the Federal and
Local Rules, she is advised that when the Court rules on Defendants’ motions, it will take into

Case l:18-c'

’33-RC Document 49 Filed 08/0'

Page 2 of 2

consideration the facts she has proffered in her complaint, along with her response or opposition
to Defendants’ motions.
Accordingly, it is hereby ORDERED that the plaintiff shall respond to the defendants
motions to dismiss on or before September 10, 2018. If the plaintiff neither responds nor moves
for an extension of time by that date, the Court may treat the motion as conceded and dismiss the
plaintiffs complaint.
SO ORDERED.
RUDOLPH CONTRERAS
United States District Judge

Dated: August 8, 2018

2

AppOlO

A ppof7f
STATUTES INVOLVED
First Amendment
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the government for a redress of grievances.
28 USC §144
Whenever a party to any proceeding in a district court makes and files a timely and
sufficient affidavit that the judge before whom the matter is pending has a personal bias or
prejudice either against him or in favor of any adverse party, such judge shall proceed no
further therein, but another judge shall be assigned to hear such proceeding.
The affidavit shall state the facts and the reasons for the belief that bias or prejudice exists,
and shall be filed not less than ten days before the beginning of the term [session] at which
the proceeding is to be heard, or good cause shall be shown for failure to file it within such
time. A party may file only one such affidavit in any case. It shall be accompanied by a
certificate of counsel of record stating that it is made in good faith.
28 USC §455(a) and (b)(5)(i)&(iii)
(a) Any justice, judge, or magistrate [magistrate judge] of the United States shall
disqualify himself in any proceeding in which his impartiality might reasonably be
questioned.
(b) He shall also disqualify himself in the following circumstances:
(5) He or his spouse, or a person within the third degree of relationship to either of
them, or the spouse of such a person:
(i) Is a party to the proceeding, or an officer, director, or trustee of a party;
(iii) Is known by the judge to have an interest that could be substantially affected by
the outcome of the proceeding;
JUDICIAL CONFERENCE OF THE UNITED STATES, COMMITTEE ON CODE OF CONDUCT
FOR UNITED STATES JUDGES, COMPENDIUM OF SELECTED OPINION §3.6-6[l]
When a judge or judicial nominee is named as a defendant and his credibility or personal or
financial interests are at issue, all judges of the same district should recuse, unless the
litigation is patently frivolous or judicial immunity is clearly applicable.
18 U.S.C.§ 1512(c) Whoever corruptively(1) Alters, destroys, mutilates, or conceals a record, document, or other object, or
attempts to do so, with the intent to impair the object's integrity or availability for
use in an official proceeding; or
(2) Otherwise obstructs, influences, or impedes any official proceeding, or attempts to
do so, shall be fined under this title or imprisoned not more than 20 years, or both.
18 U.S.C.§2071(b)
Whoever, having the custody of any such record, proceeding, map, book, document, paper
or other things, willfully and unlawfully conceals, removes, mutilates, obliterates, falsifies,
or destroys the same, shall be fined under this title or imprisoned not more than three
years..."

J

AppQ7 s18 U.S.C.§1001
(a) Except as otherwise provided in this section, whoever, in any manner within the
jurisdiction of the executive, legislative, or judicial branch of the Government of the
United States, knowingly and willfully
(1] Falsifies, conceals, or covers up by any trick, scheme, or device a material fact;
(2) Makes any materially false, fictitious, or fraudulent statement or representation;
or
(3) Makes or uses any false writing or document knowing the same to contain any
materially false, fictitious, or fraudulent statement or entry;
shall be fined under this title, imprisoned not more than 5 years or,..
18 U.S.C.§371Tfl: "If two or more persons conspire either to commit any offense against
theUnited States, or to defraud the United States, or any agency thereof in any manner or
for any purpose, and one or more of such persons do any act to effect the object of the
conspiracy, each shall be fined under this title or imprisoned not more than five years, or
both."
F.R.C.P.15(a)(3): (3) Time to Respond.
Unless the court orders otherwise, any required response to an amended pleading must be
made within the time remaining to respond to the original pleading or within 14 days after
service of the amended pleading, whichever is later.
U.S.D.C. in the D C. Civil Local Rule 7(b)
(b) OPPOSING POINTS AND AUTHORITIES.
Within 14 days of the date of service or at such other time as the Court may
direct, an opposing party shall serve and file a memorandum of points and
authorities in opposition to the motion. If such a memorandum is not filed
within the prescribed time, the Court may treat the motion as conceded.
U.S.D.C. in the D C. Civil Local Rule 83.2(d)
(d) PARTICIPATION BY NON-MEMBERS OF THIS COURT'S BAR IN COURT PROCEEDINGS.
An attorney who is not a member of the Bar of this Court may be heard in
open court only by permission of the judge to whom the case is assigned,
unless otherwise provided by the Federal Rules of Civil Procedure.
For the People Act (H.R.1)
Subtitle A—Supreme Court Ethics
Sec.7001. Code of Conduct for federal judges
(a) IN GENERAL—Chapter 57 of title 28, United States Code, is amended by adding
at the end of the following
§964 Code of Conduct
"Not later than one year after the date of the enactment of this section, the Judicial
Conference shall issue a code of conduct, which applies to each justice and judge of
the United States, except that the code of conduct may include provisions that are
applicable only to certain categories of judges or justices.

GUIDE TO JUDICIARY POLICY VOL.2C§§620.25,620.30,620.35(b), 620.45,620.50
§620.25: "Gift" means any gratuity, favor, discount, entertainment, hospitality, loan,
forbearance or other similar item having monetary value but does not include:
(g) scholarships or fellowships award on the same terms and based on the same criteria
applied to all applicants and that are based on factors other than judicial status.
§620.30: A judicial officer or employee shall not solicit a gift from any person who is
seeking official action from or doing business with the court or other entity served by the
judicial officer or employee, or from any other person whose interest may be
substantially affected by the performance or nonperformance of the judicial officer’s
or employee's official duties.
§620.35 (b)...a judicial officer or employee may accept a gift from a donor identified above
in the following circumstances:
(7) ...so long as the gift is...and is not offered or enhanced because of the judicial officer's or
employee's official position; or
(8) the gift (other than cash or investment interests) is to a judicial officer or employee
other than a judge or a member of a judge’s personal staff and has an aggregate market
value of $50 or less per occasion, provided that the aggregate market value of individual
gifts accepted from any one person under the authority of this subsection shall not exceed
$100 in a calendar year.
§620.45: Notwithstanding §620.35, a gift may be accepted by a judicial officer or employee
if a reasonable person would believe it was offered in return for being influenced in the
performance of an official act or in violation of any statute or regulation, nor may a judicial
officer or employer accept gifts from the same or different sources on a basis so frequent
that a reasonable person would believe that the public office is being used for private gain.
§620.50 mandatory disclosure requirements

/\pp°74“Judge Shopping is unsupported bv recordA. THE ALLEGATIONS IN THE VERIFIED FIRST AMENDED COMPLAINT
REGARDING JUDGE RUDOLPH CONTRERAS
[ECF16, p.8]
4. Venue is proper in this judicial district pursuant to 28 USC §139l(b)(l)&(2),
(c)(l)(2) (3), (e)(1) and (g) because some of the actions giving rise to plaintiffs
claims alleged below were committed within the jurisdiction and many defendants
reside or work in this jurisdiction. However, the venue became improper as Judge
Rudolph Contreras and his case administrator Jackie Francis are sued for
conspiracy of disruption of the Clerk’s Office’s function in violation of 18 USC
§371 such as to violate Plaintiffs First Amendment right which apparently was
caused by undisclosed conflicts of interest. Plaintiff is requesting to change venue
to U.S.D.C. in New York as being a more neutral venue. Such change of venue is
necessary pursuant to Guide to Judiciary Policy, Judicial Conference of the United
States, Committee on Code of Conduct for United States Judges, Compendium of
Selected Opinions 3.6'6[l] (Apr. 2013) which reads:
When a judge or judicial nominee is named as a defendant and his credibility
or personal or financial interests are at issue, all judges of the same district
should recuse,unless the litigation is patently frivolous or judicial immunity
is clearly applicable.
[ECF16, p.24]
27 Based on Judge Rudolph Contreras’s withholding filing of Designation of Doe 1
through 3 defendants and now continued refusing to issue Summons for Doe 1
through 3 Defendants who are Justice Grover who help James McManis to illegally
dismiss the custody appeal, Presiding Justice Mary L. Greenwood, and Judge Beth
McGowen who irregularly refused to decide the issue of vacating the residence
disclosure order of September 27, 2016, it is likely that James McManis, a leading
attorney of American Inns of Court, was influencing Judge Contreras to deter
SHAO from suing his judicial friends.
[ECF16, pp.69-70]
83. Judge Rudolph Contreras is a Judge at U.S.D.C. in the District of Columbia who
is the assigned judge for this complaint. Judge Contreras violated 18 USC §371,
disrupting and obstructing the justice by interfering the function of the Clerk’s
Office to enter the process on the court’s docket, maintain the docket and to file.
Firstly, Judge Contreras directed the Clerk’s Office not to docket the case which
was put into the dropbox of the Court on May 18, 2018, in violation of F.R.C.P.
Rule 79. Only until receiving numerous inquiries by One Source Process Server
that is located at the District of Columbia, then Judge Contreras eventually allowed
the case to be docketed on May 30, 2018. Secondly, in eventually not concealing
existence of the complaint and docket the case, Judge Contreras directed the
Clerk’s Office to shape the short form of the case name to be Shao v. Kennedy, et

Afponal. instead of Shao v. Roberts, et al. Thirdly, Judge Contreras delayed the
proceeding by blocked the Clerk’s Office from issuance of Summons for about
20+ days, until SHAO made inquiries to Michael Darby, the clerk in charge of
initiation of a case asking if his delay of issuance Summons was directed by
someone. Then, Mr. Darby was able to sign the Summons within a day after
conversing with SHAO in her investigation on the reason for such lengthy delay.
Fourthly, Judge Contreras further caused false entry on the docket to show a false
date of issuance of Summons, in violation of Rule 79. Fifthly, Judge Contreras
interfered the Clerk’s Office’s fundamental function of filing in controlling filing
of Designation of Doe defendants No. 1, 2 and 3 from June 11, 2018 to June 18,
2018, after SHAO made inquiries on whether such was regular or irregular. Sixth,
Judge Contreras directed a false entry on the docket to be made regarding the
delayed filing of Designation of Doe Defendants by back dating the filing date to
be June 14, 2018. In deterring docketing, and falsifying entries of docket, Judge
Contreras aided and abetted Jackie Francis and Michael Darby to violate F.R.C.P.
Rule 79, 18 USC §1512(c) andl8 USC §371. Judge Contreras’s deterring the
normal function of the Clerk’s office constitutes violation of 18 USC §371,
impairing, obstructing the lawful functions of any department of government.
Seventhly, Judge Contreras did not disclose his conflicts of interest with Chief
Justice John G. Roberts. These irregularities appeared to be derived from his
undisclosed conflicts of interest with the first named defendant, Chief Justice John
G. Roberts, who appointed him to have a second judge position at U.S. Foreign
Intelligence Surveillance Court in May of 2016.
As Designation of Doe No. 1 through 3 defendants were withheld from filing for a
few days and with substantial delay in issuing Summons, and the Doe No. 1
Defendant is Justice Adrienne M. Grover who did a big favor for James McManis, it
is likely that Judge Contreras has undisclosed relationship or contacts with James
McManis or other judicial defendants in this case
[ECF16,p.172]
W. Same style of obstruction of justice took place in this case in the hands of Judge
Rudolph Contreras
320. As discussed above in t1f83 and 84, the irregularities happened in Santa Clara
County Court, in California Sixth District Court of Appeal, and in US Supreme
Court, repeatedly showed in the beginning of this case with seven irregularities,
deterring the case to be filed/docketed, deterring Summons to be issued by 20+
days, specifically the 3 Summons for Doe defendants were delayed from June 11,
2018 and Judge Contreras’s case administrator Jackie Francis still refused to issue
the Summons, notably including Justice Adrienne M. Grover who silently dismiss
the child custody appeal (H040395) on May 10, 2018 with malice to accomplish
the goal of the common scheme for the conspiracies directed by James McManis
and Michael Reedy. Judge Rudolph Contreras failed to disclose his relationship
with Chief Justice John G. Roberts and created an irregular short form of the case
name to be SHAO v. Kennedy, et al., avoiding using the name of “Roberts”. As

stated above, Chief Justice John G. Roberts failed to disclose his close personal
relationship with James McManis when both are the very rare Honorary Benchers
of the Kings Inn in the U.S. Judge Contreras’s refusing to issue the Summons for
Judge Adrienne M. Grover who followed James McManis to illegally dismiss the
custody appeal is likely to follow Chief Justice John G. Roberts’ direction. Chief
Justice gave him a second job by appointing him to be a judge at U.S. Foreign
Intelligence Surveillance Court in April 2016.
B. Table re accusations and evidence totally 24 irregularities in ECF42
C.
Irregular- Summary of the irregularities
ECF
file no. rities
ECF# 19 1
Judge Rudolph Contreras and Ms.
Jackie Francis delayed creation of
this case docket by 10 days, in
violation of 18 USC §2071 and 18

use §371.

2

The delay in docketing was a
willful act as the short form of the
case name shown on the docket
irregularly omitted the last name
of Chief Justice John G. Roberts,
who is closely related to Judge
Contreras, (willful violation of 18
USC §2071(b) and 18 USC §371.)

Supporting evidence
Exh. B (email of process
server showing that the
Complaint and Summons
were put into the dropbox for
filing on 5/18/2018) Exh. C
(the end of the first entry on
the docket indicates that the
docket was created on
5/30/2018)
Exh. A proves Judge
Contreras was in control.
ECF#10 and ECF#38 “Let it
be filed” proves Judge
Contreras’s interference of the
Clerk’s Office’s ministerial
duty to file.
Exh. C and Exh. E docket
shows Shao v. Kennedy, et al,
instead of Shao v. Roberts, et
al.

App o77
3

f

Judge Rudolph Contreras failed to Exh. J (undisclosed conflicts
disclose his close relationship with of interest was uncovered:
Chief Justice John G. Roberts, the Judge Contreras was
first named defendant in the
appointed by Chief Justice
complaint, in violation of Canon 2 John G. Roberts for the
and Canon 3 of Code of Conducts second concurrent judicial
for United States Judges and hid
seat); Exh. K (Judge Rudolph
his name from showing on the
Contreras’s history of failure
short form of the case title.
to disclose conflicts of interest
which caused the public to
This is not the first time Judge
lose confidence ofjudicial
Contreras failed to disclose his
independence.)
conflicts of interest; Judge
Contreras was well known on the
media to have concealed his
relationship with the prosecuting

Appo7S
4

5

6

7

FBI agent in the case of Michael
Flynn.
Judge Rudolph Contreras caused
his Civil Case Administrator
Jackie Francis to withhold issuing
Summons for about 23 days, and
specifically selected only 4
Summons out of order to be issued
on June 5,2018, in a way
encroaching upon the duty of
another clerk, Michael Darby, in
violation of 18 USC §2071(b) and
18 USC §371.
False dates of issuance of
Summons were entered on the
docket in violation of 18 USC
§2071(b) and 18 USC §371
(conspiracy to disrupt or obstruct
the normal function of.the. Clerk’s .
Office), in apparent compliance
with Judge Contreras’s instruction.
After SHAO filed her First
Amended Complaint enlisting
Judge Contreras and his civil case
administrator Jackie Francis as • new defendants based on
conspiracy to obstruct justice in
delaying issuing Summons and
selected only 4 Summons on June
5, 2018, in encroaching ujpon. _
Michael Darby’s duty, the June 5,
2018’s entry as evidence of such
conspiracy, was removed from the
docket in early July 2018_. This is
an illegal act to purge evidence in
violationofl8USC§1512(c)(2), ,
18 USC §2071 and 18 USC §371.
Judge Contreras deterred the
clerk’s normal function of filing
by deterring filing of Notice of
Designation of Doe 1-3,
Defendants. There is nd entry on
the docket showing the Court’s
receipt of Designation of Doe 1-3
Defendants.

Exh. A(Judge Contreras
decided the issuance of
Summons which should be
the duty of Michael Darby,
not Jackie Francis.)
Exh. D (Process server’s
inquiry to the Court on the
case status which caused
eventual issuance of 50+
Summons on 6/13/2018.)
Exh. C—docket itself
indicates the delay
The date signed by Michael
Darby was false. See Exh. G:
the correct date should be June
13,2018, not June 11,
2018.

Exhibit C.(docket shows
June 5,2018’s entry was not
in the docket.)

Exh. A (Judge Contreras
controlled the Clerk’s
Office’s function), Exh. C
and E (there is no entry on
the docket regarding receipt
of Designation of Doe 1-3
Defendants.)
ECF#10: the cover page

8

9

Docket entry for ECF#10
irregularly did not put down the
actual filing date of 6/11/2018 for
“Designation of Doe 1-3
defendants”, but only bearing the
date of 6/14/2018 which was
handwritten by Judge Contreras,
when the docket entry date was
typed to be 6/15/2018 when the
real date was actually 6/18/2018.
The backdates were to cover up
Judge Contreras’s interference of
filing, in violation of 18 USC
§2071(b) and 18 USC §371—
based on the conspiracy of at least
Judge Contreras and his case
administrator Jackie Francis, in
interfering the ministerial duty to
file of the clerk’s office. It was to
cover up Judge Contreras’s
withholding filing, after SHAO efiled her Notice of Designation of
Doe 4 and 5.
Judge Contreras and his clerk
Jackie Francis delayed 23 days in
issuance of Summons for Justice
Adrienne M. Grover as Doe 1,
Justice Mary J. Greenwood as Doe
2 who are working at California
Sixth District Court of Appeal and
Justice Grover just consummated a
major conspiracy for James
McManis. The Summons were
withheld from June 11 (required
by the court to later re-file through
ECF on 6/25/2018) until July 3,
2017, after SHAO filed the First
Amended Complaint.___________

shows the Clerk’s Office
received the pleading on June
11,2018. The cover reads
“Let it be filed” which proves
Judge Contreras’s
manipulation of the clerk’s
ministerial duty to file
Exh. F ( “Designation of Doe
1-3 defendants’”s filing date
should have been June 11,
2018); ECF #10 and Exh. C
(docket) proves that the filing
was manipulated by Judge
Contreras and delayed since
June 11,2018.
ECF#11: Notice of
Designation of Doe 4 and 5
was filed on 6/13/2018 which
instigated Judge Contreras to
cease withholding filing of
Designation of Doe 1-3
Defendants.

Exh. A (Shao’s email inquiry
about whether Judge
Contreras was behind all of
these withholdings of filing.
Michael Darby did not deny.)
Exh. I (Shao’s announcement
on her FaceBook)
Exh. H (proof that Jackie
Francis’s issuance of Doe 4
and 5 was likely caused by
SHAO’s facebook posting as
not caused by her supervisor)
ECF# 17 shows the date of
issuance of Summons being
July 3.___________________

ftppO&O
ECF#24

10

11

12

ECF#32

13

14

The purged 6/5/2018’s entry was
put back to the docket on or about
7/6/2018 after Jackie Francis read
the 455 motion in ECF# 19, Sec. B
USDC delayed issuance of the
Summons against Judge Contreras
and Jackie Francis by about a
week
Judge Contreras and Jackie
Francis failed their duty to avoid
litigation costs in violation of
F.R.C.P. Rule 4
Judge Contreras and/or Jackie
Francis somehow appeared to have
detected SHAO’s activities on
drafting her Oppositions to the two
Motions of Pro Hac Vice that were
filed after 5 p.m. on July 24, 2018
and presumably rushed to the court
in order to enter the minutes order
of granting the two motions about
2 hours following the filing of the
two motions. As a result, SHAO
was not given sufficient notice for
such motions and was actually
blocked from filing her
oppositions.
Judge Contreras granted the two
motions for pro hac vice which is
regarding admission to the court,
yet the issue as to which court
should be the right venue is still
pending. Such orders were made
in violation of due process, and 28

Current docket
Cp. ECF#19, Exh.C

See Docket, ECF #17 and #22

Exhibit M: SHAO’s emails
of 7/13 and 7/16 to Jackie
Francis asking waiver of
service under Rule 4
Exh. N and O about
relationship of the hacker to
Judge Contreras.
ECF#35 Exh. U Hacker
damaged ECF#32 file.
Exh. P: The time of filing of
Motions of Pro Hac Vice
being 5:17 p.m. and 5:20 p.m.
Exh. Q: The time of granting
these two motions was 7:12
pm (See, also, Exhibit 1
attached to this motion.)

See docket. §455 motion has
been pending since July 6,
2018.

use §144.
15

ECF#35

16

California courts defendants’
attorney Michael Fox and his
associate boldly appeared on the
motion to dismiss as “pro hac vice
pending” in violation of LCvR
83.2. It appeared that Mr. Fox
knew the motions for pro hac vice
would definitely be approved.
ECF #32 court file was altered in
that the filed endorsement shown
on the top margins of each page

ECF#31
Exh.R signature pages of
ECF#31 show “pro hac vice
pending” above the names of
the California private
attorneys.

Exh. S docket for ECF#32
shows Jackie Francis altered
the “text” of ECF#32.

/\pp o?l
was deleted.

ECF#40

17

18

19

20

Exh. T proves the filed mark
in the Court’s file ECF#32
disappeared
Exh. U showing ECF 32 in
SHAO’s file was damaged by
the hacker on July 31, 2018’s
night.
Exh. T proves the filed mark
in the Court’s file ECF#32
disappeared
Exh. U showing ECF 32 in
SHAO’s file was damaged by
the hacker on July 31, 2018’s
night.

The court’s website suddenly shut
off when SHAO was to file the
returned Summons of Judge
Contreras and Jackie Francis. This
incident, when coupled with the
evidence in Exh. T and Exh. U,
suggests that Judge Contreras is
involved in hacking SHAO’s
computers and internet
Judge Rudolph Contreras
ECF#38
interfered with the Clerk Office’s
Exh. W, cover page for
normal function of enter default by ECF#38 shows “Let it be
withholding default entry against
filed” and the signature of
BJ Fadem
Judge Contreras yet the
motion never sent to the
counter of the Clerk’s Office
nor was it served upon
Plaintiff SHAO. Only God
knows how BJ Fadem’s
motion was in the hands of
Judge Contreras on July 31,
2018 when the Affidavit for
Entry of Default was filed at
about 3:26 p.m. of July 31,
2018. See Exh. 3 attached
hereto for the filing time of
SHAO’s default entry
affidavit.
ECF #38 does not have a proof of Exh. W. There is no proof of
service when BJ Fadem is not an
service
ECF user. Neither the Court nor
Exh. Z: With 5 emails, BJ
BJ Fadem would state how the
Fadem and his/her clerks
Court got the document.
failed to respond to this issue.
Exh. AA: Jackie Francis also
refused to respond
ECF#38 proves existence of
Ms. Davis at the Clerk’s
illegal ex parte communication
Office of the USDC in the
between BJ Fadem and Judge
District of Columbia
Rudolph Contreras._________
answered SHAO’s inquiry

/\ppo8^

21

22

23

The 7th violation of 18 USC
§2071,18 USC 1512(c) and 18
USC §371: The Court caused
alteration of docket to insert
ECF#38 out of order inbetween
ECF#34 and ECF#35. Judge
Contreras’s date on “Let it be
filed” (7/31/2018) appeared to be
one with back-dating, a repeated
pattern shown in ECF#10. (See
Irregularities #8 above)
ECF #35 is also without the ECF
filing mark. Only ECF
#32(Second Supplement to the
§455 motion) and ECF#35 (Reply
re the §455 motion) are removed
of filing marks. This further
indicates Judge Contreras’s
involvement of the hacking into
SHAO’s computers and 4files.
This also proves the prejudice
Judge Contreras and USDC in
D.C. has against SHAO.
The 8th fraudulent alteration of

that this ECF#38 appears to
have sent straight into the
chamber as bearing no
Receipt stamp and there was
no record when the court
received it.
Exh. X: All documents sent
through the Clerk’s Office’s
counters bear a stamp of
receipt.
Exh. Z: last email to Fadem
was to confirm presumption
that Fadem sent directly or
indirectly to Judge Contreras
ex parte the motions via
email.
Exh. AA email confirmation
with Jackie Francis about the
presumption that BJ Fadem
emailed his/her motions
directly to Judge Rudolph
Contreras.
Exh. Y: It shows irregular
insertion of ECF#38 between
ECF#34 and #35 with back
dated filing. False date of
filing was again put on the
docket as there is no record
when and how the Court
received the motion from BJ
Fadem.

ECF#35
ECF#32

Declaration of Yi Tai Shao

24

for this motion, Exhibit 6 and
the Court’s records took place
on August 3,2018: 3 hours after
7.
SHAO’s filing of ECF#40
pointing out the fraud on Judge
Contreras’s date on Let it be filed
(7/31/2018), the Court filed
ECF#41 with a new date of
8/2/2018 for Judge Contreras’s
signature for BJ Fadem’s motion
and another alteration of docket inserting this ECF#41 to be
ECF#37 and ECF#39, an apparent
court fraud shown in violation of
18 USC §371, 18 USC §2071 and
18 USC §1512(c).
Continuous internet hacking
Declaration of YI Tai Shao
related to this court’s ECF filing:
On August 5, 2018 when SHAO
was to file this motion and
prepared the exhibits. The
exhibits pages were deleted and
damaged again, just like how ECF
#32 was damaged within the
minutes when SHAO turned on the
internet and connect her files with
the laptop. Also, SHAO had to
pay to Pacer in order to open the
ECF #41 notice

6l After 8/8/2018's Order, the 4 entries were altered 3 times totally should be
counted as 12 counts, Pursuant to People v. McKenna (1953) 116 Cal.App.2d 207, each
altering the filing stamp for each piece of paper in the court's file constituted one count of
felony.
The following is copied from OPINION BELOW re irregularities after 8/8/2018—there
were 3 times of alterations and each time involves 4 docket entries.
Notably, the docket entries of 6/5/2018 (evidence of ex parte communications in which
Contreras's clerk took over the authority of the Clerk's Office and selectively issued 4
Summons and withheld other 61 Summons until 6/13/2018) and 6/11/2018 (antedating
the issuance of about 61 Summons which were withheld from issuance by 23 days) were
altered 5 times:
(1) the entries were removed immediately after Judge Contreras and his clerk were
added as defendants to the First Amended Complaint on 6/29/2018(see 7/5/2018's
printed docket in ECF19, pp.38-39);

[2) the entries were put back after criticism by SHAO (See 8/2/2018's docket in ECF40,
P-39);
(3) the entries were removed again as shown in 11/2/2018's docket (See
ECF144,p.34);
(4) the entries were put back again as shown in 12/4/2018's docket (See ECF144,p.59);
(5) the entries were removed again and are not in the present docket. The original
6/5/2018’s docket entry is shown in ECF19, p.50.
The night-time minutes orders of 7/24/2018, indicating ex parte communications
between Judge Contreras and California judicial defendants where Judge Contreras
actedwithin 2 hours of filing of California Judicial Defendants after the court house was
closed to cure their violation of Local Rule 83.20(ECF32,p.29), were altered 3 times:
(1) Removed sometime between 8/8/2018's Order and 11/10/2018. See
11/10/2018's docket in ECF144, p.34. All 4 dockets of 6/5/2018, 6/11/2018, two
7/24/2018 minutes were removed.
(2) Put back by 12/4/2018 as shown in the 12/4/2018's docket in ECF144,p.62. All 4
dockets were put back.
(3) Removed from present docket. All 4 docket entries were removed.
C.

SHAO posted on Facebook 5 days before filing the First Amended Complaint

complaining about so many irregularities took place within a month of the case. (ECF19,
P.70)

